<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                               ___________

                    SUBCOMMITTEE ON HOMELAND SECURITY

              LUCILLE ROYBAL-ALLARD, California, Chairwoman

  HENRY CUELLAR, Texas                  CHUCK FLEISCHMANN, Tennessee
  C. A. DUTCH RUPPERSBERGER, Maryland   STEVEN M. PALAZZO, Mississippi
  DAVID E. PRICE, North Carolina        DAN NEWHOUSE, Washington
  DEBBIE WASSERMAN SCHULTZ, Florida     JOHN H. RUTHERFORD, Florida
  GRACE MENG, New York
  PETE AGUILAR, California
  

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.


             Darek Newby, Michael S. Herman, Robert Joachim,
            Kris Mallard, Karyn Richman, and Elizabeth Lapham
                            Subcommittee Staff

                              ____________

                                  PART 2
                                  
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  Department of Homeland Security.......
                                                                      1
  Members' Day..........................
                                                                    217
  U.S. Customs and Border Protection....
                                                                    311
  United States Coast Guard.............
                                                                    361

                                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
                                 _____

          Printed for the use of the Committee on Appropriations
          

                    U.S. GOVERNMENT PUBLISHING OFFICE

  43-031                    WASHINGTON : 2021

                           


 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                  KAY GRANGER, TEXAS
  PETER J. VISCLOSKY, Indiana         HAROLD ROGERS, KENTUCKY
  JOSE E. SERRANO, New York           ROBERT B. ADERHOLT, ALABAMA
  ROSA L. DeLAURO, Connecticut        MICHAEL K. SIMPSON, IDAHO
  DAVID E. PRICE, North Carolina      JOHN R. CARTER, TEXAS
  LUCILLE ROYBAL-ALLARD, California   KEN CALVERT, CALIFORNIA
  SANFORD D. BISHOP, Jr., Georgia     TOM COLE, OKLAHOMA
  BARBARA LEE, California             MARIO DIAZ-BALART, FLORIDA
  BETTY McCOLLUM, Minnesota           TOM GRAVES, GEORGIA
  TIM RYAN, Ohio                      STEVE WOMACK, ARKANSAS
  C. A. DUTCH RUPPERSBERGER, Maryland JEFF FORTENBERRY, NEBRASKA
  DEBBIE WASSERMAN SCHULTZ, Florida   CHUCK FLEISCHMANN, TENNESSEE
  HENRY CUELLAR, Texas                JAIME HERRERA BEUTLER, WASHINGTON
  CHELLIE PINGREE, Maine              DAVID P. JOYCE, OHIO
  MIKE QUIGLEY, Illinois              ANDY HARRIS, MARYLAND
  DEREK KILMER, Washington            MARTHA ROBY, ALABAMA
  MATT CARTWRIGHT, Pennsylvania       MARK E. AMODEI, NEVADA
  GRACE MENG, New York                CHRIS STEWART, UTAH
  MARK POCAN, Wisconsin               STEVEN M. PALAZZO, MISSISSIPPI
  KATHERINE M. CLARK, Massachusetts   DAN NEWHOUSE, WASHINGTON
  PETE AGUILAR, California            JOHN R. MOOLENAAR, MICHIGAN
  LOIS FRANKEL, Florida               JOHN H. RUTHERFORD, FLORIDA
  CHERI BUSTOS, Illinois              WILL HURD, TEXAS
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

 
                 Shalanda Young, Clerk and Staff Director

                                   (ii)
                                   
                                   
                            C O N T E N T S

                              ----------                              
                                                                   Page

                  U.S. Department of Homeland Security

Wolf, Hon. Chad, Acting Secretary................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................    59

                              Members' Day

Chu, Hon. Judy, a Representative in Congress from the State of 
  California.....................................................   267

Correa, Hon. J. Luis, a Representative in Congress from the State 
  of California..................................................   293

Cunningham, a Representative in Congress from the State of South 
  Carolina.......................................................   261

Escobar, a Representative in Congress from the State of Texas....   239

Fulcher, Hon. Russell, a Representative in Congress from the 
  State of Idaho.................................................   225

Garcia, Hon. Sylvia, a Representative in Congress from the State 
  of Texas.......................................................   298

Gonzalez-Colon, Hon. Jenniffer, a Delegate in Congress from the 
  Territory of Puerto Rico.......................................   230

Graves, Hon. Garrett, a Representative in Congress from the State 
  of Louisiana...................................................   247

Grijalva, Hon. Raul M., a Representative in Congress from the 
  State of Arizona...............................................   300

Hill, Hon. J. French, a Representative in Congress from the State 
  of Arkansas....................................................   271

Jackson Lee, Hon. Sheila, a Representative in Congress from the 
  State of Texas.................................................   277

Johnson, Hon. Eddie Bernice, a Representative in Congress from 
  the State of Texas.............................................   302

Perry, Hon. Scott, a Representative in Congress from the State of 
  Pennsylvania...................................................   290

Plaskett, Hon. Stacey, a Delegate in Congress from the Territory 
  of the U.S. Virgin Islands.....................................   217

Ruiz, Hon. Raul, a Representative in Congress from the State of 
  California.....................................................   304

Scalise, Hon. Steve, a Representative in Congress from the State 
  of Louisiana...................................................   309

Suozzi, Hon. Thomas, a Representative in Congress from the State 
  of New York 

Torres Small, Hon. Xochitl, Representative in Congress from the 
  State of New Mexico............................................   254

Visclosky, Hon. Peter J., a Representative in Congress from the 
  State of Indiana...............................................   283

                   U.S. Customs and Border Protection

Morgan, Mark A., Acting Commissioner.............................   314
    Prepared statement...........................................   317

                    U.S. Coast Guard Budget Request

Schultz, Admiral Karl, Commandant, U.S. Coast Guard..............   361
    Prepared statement...........................................   366

               Immigration and Customs Enforcement Agency

Albence, Matthew T., Deputy Director.............................   398
    Prepared statement...........................................   403
Answers to submitted questions...................................   452


               HOMELAND SECURITY APPROPRIATIONS FOR 2021

                              ----------                              

                                       Wednesday, February 26, 2020

                  U.S. DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. CHAD F. WOLF, ACTING SECRETARY
    Ms. Roybal-Allard. The subcommittee will come to order.
    Today we welcome Chad Wolf, the Acting Secretary of the 
Department of Homeland Security.
    Thank you for being with us this morning.
    Mr. Secretary, the fiscal year 2021 budget proposes $49.7 
billion in net discretionary funding for the Department of 
Homeland Security. While this is a cut of $750 million below 
the current-year level, the budget also proposes transferring 
the United States Secret Service to the Treasury Department.
    I want to be clear that, absent any enacted law to effect 
such a transfer, this subcommittee will continue to include 
funding for the Secret Service in its bill. When including 
funding for the Secret Service in the total, the budget request 
for fiscal year 2021 is actually $1.78 billion above the 
current-year level.
    There are some things in the proposed budget that I believe 
will find strong bipartisan support, such as funding for the 
Coast Guard's second Polar Security Cutter.
    However, there are also proposals you should not expect to 
see funded in the House bill. Among those are more funding for 
border barriers and the expansion of detention bed capacity, 
which I believe are unnecessary, particularly in light of high-
priority needs such as continuing to hire Customs officers to 
speed the flow of trade and travel at the ports of entry.
    Most of today's hearing will likely focus on immigration 
enforcement and border security, including serious cases of the 
abuse of authority by some DHS personnel and contractors.
    While the mistreatment of migrants is inexcusable, I would 
be remiss if I did not also recognize the dedication and 
commitment of the vast majority of women and men of the 
Department of Homeland Security, who carry out the Department's 
vital missions that help protect the American public and our 
country from a wide range of threats. This includes rescuing 
and giving aid to Americans following natural disasters, 
defending us against cyber attacks, securing our airports, and 
investigating child exploitation and trafficking. The 
subcommittee will continue to work with you to ensure they have 
the resources needed to carry out the Department's many 
critical missions.
    The members of this subcommittee also have the 
responsibility to make sure the Department and its personnel 
carry out its missions responsibly, lawfully, efficiently and 
humanely. We have always endeavored to work collaboratively 
with you and your predecessors to fix problems where needed, 
and we will continue to try and do so, hopefully with better 
cooperation from the Department.
    Unfortunately, that is getting harder and harder to do. I 
have been a member of this subcommittee since its creation 
shortly after the 9/11 terrorist attacks. I cannot remember a 
time when there was less consensus about immigration and border 
security and, from my point of view, a systemic disregard for 
the rights of migrants, the detained population, and the asylum 
laws of this country.
    In its zeal to shut down the flow of migrants coming to the 
United States across our southern border, the administration 
has implemented multiple new programs to expedite the removal 
process, each of which erodes the due-process rights of 
migrants to seek asylum or other forms of relief from the 
dangers that they fear.
    At every turn, in response to the question of how to 
balance the Department's dual missions of immigration 
enforcement and protecting asylum seekers, the administration 
has erred exclusively and determinedly on the side of 
enforcement and removal, regardless of the circumstances.
    The so-called Migrant Protection Protocols, or MPP, is a 
clear and heartbreaking example. MPP has been implemented with 
only the most superficial effort to ensure migrants returned to 
Mexico will, in fact, be protected, have food, shelter, 
healthcare, security, and the ability to return for their 
immigration hearings.
    Only the most superficial efforts have been made to ensure 
migrants have meaningful access to counsel--access which 
should, at the very least, be equivalent to what they would 
have if they had not been placed in MPP.
    The devaluing of the rights of migrants goes beyond even 
the design of these new programs. Under MPP guidelines, 
vulnerable populations are not supposed to be placed in the 
program. Yet there is a steady stream of reports of pregnant 
women, individuals with serious health issues or disabilities, 
including children, and LGBT migrants being placed into the 
program and, in some cases, coming to harm as a result.
    Mr. Secretary, I doubt that we will come to agreement on 
whether this administration's immigration policies strike the 
right balance. Changing these policies fall under the 
jurisdiction of the authorizing committees. However, it is 
squarely within this committee's jurisdiction to ensure that 
the administration's policies and the use of funds to implement 
them do not run afoul of the humane treatment of migrants, 
their due-process rights, and asylum laws.
    Carrying out our oversight responsibilities requires us to 
have access to the full range of information about how the 
programs we are funding are being implemented. Unfortunately, 
the Department and its agencies are not always forthcoming with 
all the requested information. While appropriations liaisons 
and budget officials from CBP, ICE, and USCIS usually do their 
best to get us the information we need to do our work, they are 
often not sufficiently empowered to do so. As a result, we are 
often stonewalled on getting the requested information.
    Mr. Secretary, as the head of the Department of Homeland 
Security, you set the tone and establish the rules that will 
guide the Department in meeting our shared goals of protecting 
our homeland and our American values. If we are to be 
successful in achieving these goals, we need your support and 
your cooperation in performing our oversight function, and I 
truly hope that it will be forthcoming.
    Before I turn to the Acting Secretary for a summary of his 
written statement, the text of which will be included in the 
hearing record, let me first recognize our distinguished 
ranking member, Mr. Fleischmann, for any remarks he wishes to 
make.
    [The prepared statement of Ms. Roybal-Allard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Fleischmann. Thank you, Madam Chairwoman.
    Mr. Secretary, on a personal note, I wish to thank you for 
the way that you have been so courteous, so accessible--you and 
your staff have reached out to us on numerous occasions--and 
for stepping up at a very difficult time in our country's 
history to take on this Herculean task. So my personal note of 
thanks to you and your staff, sir.
    I also want to thank you for meeting with us today on the 
Department of Homeland Security's fiscal year 2021 budget 
request. And this is, again, an awesome responsibility that you 
have undertaken, and I am ready to work with you as we move 
forward.
    As always, there is a lot to absorb with the Department's 
request. There are a lot of new initiatives and a lot of 
threats we are trying to cover. I look forward to hearing from 
the individual components in the hearings planned over the next 
2 months. I thank the chairwoman for putting together a 
schedule that will allow us to get into more specifics with 
each component.
    And despite the fact that the distinguished chair and I 
agree on some issues and disagree on other issues, we work very 
well together, and there is a tremendous amount of mutual 
respect.
    And, Madam Chair, I truly thank you for that and those 
courtesies.
    There is a lot of great work being done across the 
Department. It is clear that the people at the Department are 
working hard every day to keep our country safe. And, again, I 
have had the opportunity to visit many DHS sites and offices 
with the chair and other members on both sides of this dais and 
bases across this country to hear from your people and the 
dedication and commitment shown by the people of DHS to the 
mission of protecting our country. Please pass along our thanks 
for the work they are doing around the clock every day, sir.
    Last year, we saw an unprecedented crisis at our southwest 
border. I am glad we could come to a four-corner agreement with 
the supplemental last summer to provide humanitarian aid and 
relieve some of the stress on Customs and Border Protection and 
help move the unaccompanied minors to HHS care.
    However, the crisis is still ongoing. We are still seeing 
tens of thousands of migrants apprehended at the border every 
month, and we are seeing operational challenges at ICE and 
USCIS, as those components grapple with the overwhelming 
caseloads of migrants who are already in the country.
    But I am optimistic that we can again work together to 
address these challenges. And I continue to impart to our 
distinguished chair that there are so many places where we can 
actually agree: border-security technology, humanitarian aid, 
increases for cybersecurity research, increase in investments 
in our great United States Coast Guard assets, and FTE 
investments to improve trade, travel, investigations, and 
enforcement. Even the requested continued construction on the 
border wall system is within our ballpark at $2 billion.
    I am going to continue to work with you and with the 
President to support his initiatives and his request for border 
security. And I am hopeful that, together, both sides of the 
aisle and both sides of the Capitol, we can continue to come to 
agreements and solutions.
    I look forward to your testimony today and the Department's 
proposed investments and initiatives. I thank you for being 
here.
    And, Madam Chair, I yield back.
    Ms. Roybal-Allard. OK. Thank you, Mr. Fleischmann.
    And now I would like to recognize the chairwoman of the 
full Appropriations Committee, Mrs. Lowey.
    The Chairwoman. And I thank Chairwoman Roybal-Allard and 
Ranking Member Fleischmann for holding this hearing today.
    And thank you. I hope you have a good, long term in this 
position. That has not been the case so far.
    I want to thank all our witnesses for joining us.
    The Department of Homeland Security's mission to secure our 
Nation from persistent and pervasive threats is not an easy 
task. In New York, we know that better than most. To ensure 
safety, different parts of DHS must effectively coordinate and 
cooperate while simultaneously working with other Federal, 
State, and local agencies.
    That is why the state of affairs at the Department of 
Homeland Security is so troubling. As I told the last Acting 
Secretary, who testified before our committee, it seems like 
the car is driving off the cliff with no one to take the wheel. 
In 3 short years, the Department of Homeland Security has been 
through five Secretaries. Your four predecessors instituted 
inhumane policies of ripping children from their families, 
jailing decent people for nonviolent infractions.
    Ensuring the integrity of our borders and enforcing 
immigration laws are difficult and necessary jobs, but this 
administration has taken it too far, with a heartless obsession 
with immigration enforcement.
    I have recently received calls from local officials in my 
district with heartbreaking news that our young people are 
being pulled over, roughed up by ICE enforcement officers for 
no apparent reason. This creates a culture of fear and works 
directly against the community policing work local law 
enforcement does on a daily basis to build trust and keep us 
safe.
    In addition, the Department deployed CBP personnel from the 
southern border, including personnel from law enforcement 
tactical units, to augment ICE's interior enforcement 
operations. This action was meant to punish localities like the 
ones I represent that refuse to participate in the cruel and 
unlawful immigration enforcement initiatives.
    It also came on the heels of another decision meant to 
target my constituents, suspension of CBP Trusted Traveler 
Programs in New York, which will affect more than 200,000 New 
Yorkers by the end of the year.
    Turning to fiscal year 2021, the budget yet again calls for 
the unnecessary hiring of an additional 2,844 ICE law 
enforcement officers and proposes an outrageous increase to 
60,000 detention beds.
    The administration appears to have learned nothing, as 
Democrats will not fund unnecessary whims of the President or 
his campaign promises, particularly for an agency that lacks 
transparency and whose enforcement tactics are out of control.
    The request again misses the point by focusing on a 
political agenda instead of securing our homeland. The budget 
would cut $239 million from the Urban Area Security Initiative, 
which assists high-threat, high-density urban areas where the 
consequences of attacks would be most catastrophic, and $228 
million from the State Homeland Security Grant Program, which 
enhances law enforcement's ability to prevent and respond to 
acts of terrorism or other disasters. These cuts could have 
disastrous consequences.
    Late last year, my district witnessed a horrific anti-
Semitic attack. The cuts that you propose are a slap in the 
face to my constituents, who live in constant fear that they 
won't have the security and funding needed given the sharp rise 
of such attacks.
    The committee remains eager to support the Department's 
core mission, but we will not be a part of a political act that 
distracts from the real threats facing our homeland.
    I look forward to a productive discussion today. Thank you.
    Ms. Roybal-Allard. And now I would like to recognize the 
ranking member of the full committee, Ms. Granger.
    Ms. Granger. Thank you, Madam Chairwoman.
    Mr. Secretary, thank you for coming before the subcommittee 
today to present the fiscal year 2021 budget for the Department 
of Homeland Security.
    You recently assumed an enormous responsibility as Acting 
Secretary of the Department. We recognize that. You are now 
charged with leading more than 240,000 men and women who work 
tirelessly to protect our Nation, often without the proper 
credit. I commend them for their commitment to the Department's 
mission.
    In my home State of Texas, we share the longest stretch of 
border of any State and have an important relationship with our 
neighbors to the south. I appreciate your understanding of our 
unique situation. I know that you remain committed to securing 
our borders, keeping our communities safe, ensuring the legal 
trade and travel so vital to our State and Nation.
    Just 2 days ago, I was in McAllen, Texas, with Deputy 
Secretary of Defense David Norquist to see firsthand where our 
hard-fought investments in border security have produced 
results. This is my sixth trip to the border during this 
crisis.
    Hundreds of miles of improved border fencing have been 
built or are under construction. The partnership with the 
Department of Defense is allowing Border Patrol agents to get 
back to their mission of securing the border, and that is what 
they deserve. I was amazingly aware of new technologies that 
are being developed where they can spot persons coming across 
our border in time to apprehend them safely.
    I would encourage all the committee members to travel to 
the border and see some of these improvements, particularly the 
cooperation among sections and the technology being used.
    Unfortunately, even with these improvements, we continue to 
have a crisis on our hands, and the facts are undeniable. In 
2018, 400,000 people were apprehended at the border, which is 
an unbelievable number of unauthorized border crossings. Last 
year, that number more than doubled to nearly 1 million, 
marking a 12-year high.
    As claims for asylum go up, the pressure on the immigration 
courts grows, and, as we speak, the backlog of cases is already 
now 5 years long.
    The most important issue we have is the high amount of 
illegal drugs being carried across our border and the criminals 
who are bringing those drugs in and also children. This is 
something we need to be very aware.
    While I remain hopeful that our colleagues on the other 
side of the aisle will work with us to address these very real 
issues, I commend the President for using authorities under his 
jurisdiction to address these issues head-on.
    Mr. Wolf, I think your proposed budget for fiscal year 2021 
demonstrates how the Department can and will take action if 
given sufficient resources. As always, I will continue to work 
with the administration to find solutions for these challenges.
    I do want always to be aware is the criminal action at the 
border and criminals coming across our border. These are not 
people that are the people that are seeking asylum. It is 
people that are carrying drugs and people.
    Thank you, Madam Chairwoman. I yield back.
    Ms. Roybal-Allard. Before we hear from the Secretary, I 
would like to remind members that they will be called for 
questioning based on the seniority of those present when the 
hearing was called to order, alternating between majority and 
minority members.
    Also, to ensure everyone has ample opportunity to ask 
questions, I would ask each member to try to stay within the 
allotted 5 minutes per round.
    Mr. Secretary, please begin your statement.
    Mr. Wolf. Chairwoman Roybal-Allard, Ranking Member 
Fleischmann, and distinguished members of the subcommittee, it 
is a privilege to appear before you today to discuss the 
Department of Homeland Security's mission to keep this Nation 
safe and to present the President's fiscal year 2021 budget for 
the Department.
    As Acting Secretary, my priorities are guided by a 
determination to ensure that DHS is robust, resilient, and 
forward-leaning, prepared to address the threats of today and 
those of tomorrow. The fiscal year 2021 President's budget is 
not only a reflection of those priorities but a path to 
achieving them.
    As this subcommittee knows, the Department of Homeland 
Security's mission spans air, land, sea, and cyber domains. Our 
workforce of 240,000-strong stands watch for the Nation 24 
hours a day, 365 days a year. They safeguard the United States 
from terrorists, adversaries, and others who seek to do us 
harm.
    They also facilitate our lawful trade and travel, balancing 
security and freedom of movement with care and precision. As I 
often say, economic security is homeland security, and the 
Department plays a critical role in this mission.
    The President's budget ensures that our workforce has the 
resources it needs to execute these critical responsibilities. 
This includes $49.8 billion in net discretionary funding and an 
additional $5.1 billion for the Disaster Relief Fund to support 
response to and recovery from disasters in the homeland.
    Our budget priorities remain consistent with recent years. 
They include securing our borders, enforcing our immigration 
laws, securing cyberspace and critical infrastructure, 
transportation security, and American preparedness.
    Recognizing that threats to the homeland are more dynamic 
than ever before, the budget positions us to respond to a 
number of emerging threats, including those emanating from 
nation-states.
    The Department also remains focused on helping to manage 
the U.S. Government's response to the coronavirus. To be clear, 
the lead Federal agency in charge of this response remains the 
Department of Health and Human Services. DHS remains focused on 
assisting travelers arriving at our air ports of entry, land 
ports of entry, and maritime ports of entry.
    As you are aware, the Department took action early on to 
prohibit Chinese nationals--I would say, the administration 
took action early on to prohibit Chinese nationals and foreign 
nationals who had recently traveled to China from entering the 
United States. Additionally, flights with American citizens 
arriving from China or American citizens with recent Chinese 
travel have been funneled through 11 airports with enhanced 
medical screening capabilities.
    These measures have been effective at keeping the virus at 
bay, but I would say that this is an evolving risk, and we are 
assessing our resources and our measures on a day-by-day, week-
by-week progress. We will continue to closely monitor the 
situation and adjust our measures as necessary.
    I will highlight a few specific priorities included in the 
fiscal year 2021 budget.
    The Department must continue to grow our digital defense, 
as cybersecurity threats grow in scope and severity.
    The Department maintains an enhanced posture on the 
election-security front to preserve our electoral process and 
secure our system against interference of any kind.
    The President's budget invests $1.7 billion in the 
Cybersecurity and Infrastructure Security Agency to strengthen 
our cyber- and infrastructure security mission. This is an 
increase of roughly $150 million above the President's fiscal 
year 2020 budget request.
    The security of our Nation's border also remains a primary 
focus of the administration and for the Department. Most 
notably, the budget includes $2 billion for the construction of 
approximately 82 miles of new border wall system as well as 
additional funding for technology and staffing.
    While securing our borders is of utmost importance, the 
integrity of our immigration system requires that we enforce 
the law as written. It remains the priority of the Department 
to protect our citizens by identifying, detaining, and removing 
criminal aliens from the United States. The budget includes 
over $3 billion to ensure that our law enforcement has the 
resources it needs to faithfully execute the law.
    As true today as it was in the wake of 9/11, 
counterterrorism remains a top focus for the Department. 
Importantly, the President has increased funding for targeted 
violence and terrorism prevention programs in this budget by 
500 percent. The $96 million in funding distributed across DHS 
components is critical to identifying at-risk individuals and 
preventing their radicalization to violence.
    The budget also invests in modernizing the fleet of the 
United States Coast Guard. It provides $550 million to fund the 
construction of the second Polar Security Cutter, which 
supports our national interest in the polar region. It also 
includes $564 million for the Offshore Patrol Cutter, another 
critical capital investment for the Coast Guard.
    And while physical capabilities and technology are 
important, the Department's greatest asset remains the men and 
women of the Department. And as our threats evolve and 
capabilities grow, new talent is needed to execute our mission.
    And so, again, in the budget for the Department, we see 500 
new cybersecurity employees across the Department being asked 
for; for CBP, 750 new Border Patrol agents and 126 new support 
staff, as well as funding to sustain the 300 Border Patrol 
processing coordinators, again, that Congress provided 
resources for in fiscal year 2020; for ICE, 2,800 new law 
enforcement officers, as well as 420 new ICE attorneys and 
1,400 new support staff; for TSA, it means sustaining the pace 
in passenger growth by sustaining 47,000 transportation 
security officers.
    The budget also provides an overall pay increase for DHS 
employees, including a 3-percent increase for uniformed Coast 
Guard men and women.
    These are only but a few of the priorities included in the 
budget. The Department, as has been mentioned, has one of the 
most diverse and complex mission sets in all of government, and 
I continue to be amazed by the professionalism and dedication 
of the men and women of DHS.
    And I would encourage, instead of demonizing our workforce, 
that we all need to thank them for what they do every day. 
Their commitment to our mission is beyond reproach, and we 
should all sleep better at night knowing that they are on duty.
    Therefore, I ask you for your support in providing them the 
resources needed to keep the American people and our homeland 
secure through the President's fiscal year 2021 budget request.
    Thank you again for the opportunity to be here today, and I 
look forward to the questions.
    [The prepared statement of Mr. Wolf follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Roybal-Allard. Thank you, Mr. Secretary.
    Mr. Secretary, the budget proposes funding for an average 
daily population in detention of 60,000. This is a drastic 
increase of 14,726 over the capacity funded in fiscal year 
2020, and it would require an additional $710 million.
    This is remarkable when considering that, after accounting 
for the proposed transfer of the Secret Service to the 
Department of Treasury, the budget request proposes an overall 
increase of $1.78 billion above the fiscal year 2020 enacted 
level, yet there is no funding for recapitalization programs 
like the Fast Response Cutters and the HC-130J aircraft, which 
are critical to search and rescue activities, counter-drug 
operations, and disaster response.
    Do you have any analysis that supports a detention bed 
requirement of 60,000 in fiscal year 2021?
    Mr. Wolf. Yes, Chairwoman. As you know, we do have a model 
that drives the number of beds that we request every year. We 
have shared that with the committee. We will continue to share 
that. If we haven't, I am happy to share that. We have shared 
it with a number of folks.
    Obviously, that looks at past data. That looks at current 
trends. It looks at seasonality. It looks at a number of 
factors that ICE needs to continue to do its mission.
    I will say that, as has been mentioned, we had a surge last 
year in May, June, and July, a number over 100,000 in many of 
those months coming across the border illegally that were 
released into the U.S.
    Again, there is a tail to that enforcement cycle, that ICE 
will then have to go into communities and for those that are 
here illegally, that are criminals and the like, that fall out 
of status in some cases, will have to continue to remove those 
individuals. And the only way to remove them is to detain them.
    So, yes, I am happy to share additional information if you 
don't already have it on what drove that number in the 
President's budget.
    Ms. Roybal-Allard. Mr. Secretary, that is of concern, that 
you have shared this information with a number of folks, 
whoever they happen to be, but that information has not been 
shared with this subcommittee. And being that we oversee how 
funds are spent and the reasons for which the administration 
has requested certain things, I think it is critical that, 
number one, above all, that this subcommittee should be the 
first to get that information.
    My second question is: Over the last year, the Department 
has rolled out several new programs that actually result in the 
removal of migrants directly from CBP custody instead of being 
transferred to ICE. These programs include the Migrant 
Protection Protocols, Prompt Asylum Claim Review, the 
Humanitarian Asylum Review Process, and the increased use of 
Electronic Nationality Verification.
    Moreover, this committee has provided increased funding for 
alternatives to detention programs, which follows asylum 
seekers to live in their communities.
    Were these programs factored into the 60,000 ICE bed 
requirement? And, again, if the answer is yes, we need to see 
that analysis. And I will just add to that, why haven't we?
    Mr. Wolf. Sure. It has been factored. Many of the programs 
that you mentioned, Chairwoman, are new initiatives, so a lot 
of them have not been fully implemented, whether we talk about 
PACR or HARP or a few of the others. So we continue to 
implement those measures.
    The MPP, the ENV flights, these are all efforts to ensure 
that those that are seeking meritorious claims can have their 
day in immigration court heard in an effective manner. So we 
are hoping to do that through a number of ways. We are hoping 
to do that in months and not years that has been the case in 
the past.
    So, again, part of the effort on a number of these 
programs--and I am happy to walk through these--is to ensure 
that we root out fraud, but, again, those that have meritorious 
claims, that we make sure that they get their day in court 
quickly so that we know that they either have a legal right to 
be here in the U.S. or they don't, and then we effectuate that 
decision accordingly, instead of the years and years that it 
has traditionally took.
    Ms. Roybal-Allard. OK. We will be asking some further 
questions about those programs and the impact it has on 
immigrants. But I want to emphasize again the importance of 
this subcommittee getting the analysis for the things that you 
are asking for rather than whoever ``some folks'' are.
    My time is almost up, so I am going to yield to the next 
member.
    Mr. Fleischmann?
    Mr. Fleischmann. Thank you, Madam Chairman.
    Again, Mr. Secretary, thank you for being here today.
    Mr. Secretary, I want to talk with you about something that 
is obviously affecting the world and of course is impacting the 
United States, the coronavirus situation.
    First and foremost, I want my colleagues and the people in 
the room to know that you have been so proactive and 
cooperative. You called me early, at the inception of this 
crisis and have kept me abreast, and I thank you for that.
    We are all keeping a watchful eye on this critically 
important situation, and I have received updates from the 
medical side and have been kept abreast by others involved in 
this crisis. And we certainly want to be responsive to needs.
    Can you kindly clarify what exactly your Department's 
specific areas of responsibility are when it comes to the 
coronavirus? Because, fortunately, there has been a strong 
national response. The CDC is involved. But as it relates to 
Homeland Security, what is within your purview, sir?
    Mr. Wolf. Thank you. And it certainly is a whole-of-
government approach that the administration is pursuing 
regarding this.
    Specifically for the Department, we are there to support, 
again, the Department of Health and Human Services as they 
outline a medical strategy to deal with the coronavirus. We are 
there to support them and to adjust our operations accordingly.
    So, specifically, the Department was involved early on in 
the funneling of all flights from China to 11 different 
airports. We were involved in standing up medical contracts 
through our CWMD office at those 11 airports so individuals 
that come off of those aircraft first will see a CBP officer, 
who is just a normal immigration officer. They will then go to 
contract medical screening, again, that the Department has set 
up in those 11 airports, and then, if necessary, will be 
referred to CDC medical professionals to determine if a 
quarantine is needed or not.
    So we do that in the airports. We also do this at land 
ports of entry. We also do this at maritime ports of entry. So 
we have a number of cargo ships arriving every day from China 
that are carrying goods but also have crew that have perhaps 
visited affected areas as well.
    So we have Coast Guard involved; we have CBP involved. It 
is a whole-of-departmental effort to make sure that we are 
instituting the measures that the President has put in place, 
to include the travel restrictions to make sure, again, that 
the American public is safe and secure.
    Mr. Fleischmann. Well, thank you, sir. And count me in for 
our full support of your endeavors and that of the other 
departments as we combat this critically important situation 
and crisis.
    Mr. Secretary, during my time in Congress, I have come to 
learn and appreciate the critical role that research and 
development plays in securing our Nation and providing the seed 
money for innovative goods and services. What is DHS doing to 
prepare to meet the Nation's future homeland security needs?
    And as a followup to that, how is the Science and 
Technology Directorate leveraging the scientific expertise and 
research and development resources of our national 
laboratories, universities, and industries, sir?
    Mr. Wolf. So we do that in a variety of different ways.
    We certainly do that at our component level, with the 
funding that they have. The operators know for the most part 
what technology and what capabilities they need. So we use the 
funding within those components to mostly acquire commercial 
off-the-shelf products that are here, ready to go today.
    And then we have a little bit longer-term idea when we talk 
about our Science and Technology Directorate that is investing 
in those technologies that are perhaps not ready today but will 
be in the short timeframe, looking at that 1- to 2- to 3-year 
period.
    I think early on in the Department's mission or lifespan, 
that Science and Technology Directorate had a little bit longer 
tail, you know, what was 5 or 10 years out, and I think over 
time we have seen that we need the capabilities a lot sooner 
than that. So we will continue to invest in that.
    S&T uses not only centers of excellence, again, that they 
receive funding from Congress on, but also the National 
Laboratory Network to do that, to invest in some of the high-
tech expertise that they don't have on-site but, obviously, 
different national laboratories around the country do. So we 
have agreements with them to continue to utilize their 
expertise as well.
    So, again, it spans the spectrum from technology that we 
need today, relatively soon, for operational requirements to 
those technologies that can either be improved on or we need to 
invest in with other elements of the U.S. Government.
    Mr. Fleischmann. Thank you, Mr. Secretary. And since my 
time is about up, I thank you for your responses.
    And, Madam Chair, I yield back.
    Ms. Roybal-Allard. Mrs. Lowey.
    The Chairwoman. Mr. Secretary, your predecessor established 
a red team review of the Migrant Protection Protocols last 
fall. Can you share with us what DHS has done in response to 
the red team recommendations, particularly with regard to 
ensuring migrants have meaningful access to legal counsel?
    Mr. Wolf. So we have done a number of things. So the 
previous Acting Secretary took that red team report and sent it 
out to the Department to say, OK, you know, we would like to 
see your responses. So, again, ICE, CBP, USCIS mainly, here are 
the results of that Red Team, and then we would like to see the 
responses.
    Some initial responses came back--and he gave them two 
different timeframes to do that. Some initial responses came 
back. We have started to implement those. And then a more 
fulsome response will be forthcoming as well.
    We continue to do a number of things to try to improve the 
program. I have heard from the chairwoman and from others about 
access to counsel. We continue to look at that.
    Again, everyone who comes into MPP receives a medical 
screening each and every time they come into that program. So 
if there are three or four times they are coming back across 
the border to go to immigration court, every time, they are 
looking at a medical screening. Every time, they are meeting 
with USCIS officers----
    The Chairwoman. May I interrupt for a minute? Because time 
is so limited. You are saying you are continuing to look at 
access to counsel.
    Mr. Wolf. Yes.
    The Chairwoman. What are you looking at, and what can you 
do, and what are you doing?
    Mr. Wolf. Well, of course they have access to counsel. And 
so the question that we have been, you know, discussing with 
committee staff and others is, how do we continue to improve on 
that?
    So one thing that we are doing is showing--we have a ``know 
your rights'' video. So that is something that is very specific 
to the MPP court process that does not occur in interior 
immigration courts. So it is a continuous running video of 
``know your rights.''
    Committee staff and the chairwoman has asked if we could do 
that in person. We are taking a look at that with our 
operational components to have that be live--again, something 
that is not done in domestic immigration courts today.
    The Chairwoman. I want to interrupt for a minute, because I 
was in Laredo last week, and I was concerned that the ``know 
your rights'' video was shown on a small television in a room 
with fans so loud that it was very difficult for migrants to 
hear or understand. So this is obviously unacceptable and must 
be addressed immediately.
    I don't know if you are aware of that.
    Mr. Wolf. I have not heard that specific concern about the 
television and the fans. But I made a note of it, so we will 
take a look at it.
    The Chairwoman. Additionally, yesterday at your hearing 
before the Senate Appropriations Committee, you stated that 
many migrants in the MPP program are not showing up for 
hearings, and you attributed that to a lack of valid asylum 
claim.
    Do you have an analysis to justify that claim, and can you 
provide that to the committee?
    Mr. Wolf. I think my comment was, again, we are seeing 
roughly 50 percent of folks who don't show up to continue their 
immigration proceedings in the program. That is roughly the 
same that we see with interior courts or interior proceedings 
as well.
    So part of that is not having a claim. Some can simply just 
choose not to be part of the program any longer. You know, if 
they don't like how the program is going, they don't like the 
wait, they don't like a number of things, they can simply 
choose and leave. That is hard data to have.
    So there are a number of reasons why an individual may not 
continue to proceed with their immigration proceedings under 
the MPP program. I think my comment yesterday was to draw the 
parallels between, sort of, the no-show rate that we see in the 
interior and specifically what we are seeing at MPP courts as 
well.
    The Chairwoman. I would like to see if there is a better 
analysis to see why they are not showing up and if there is 
something we can do to improve the system.
    We ask because we have been made aware of several other 
factors that impact MPP migrants' ability to appear for the 
hearings: number one, migrants' lack of understanding of the 
process; shelters are far from the border; the requirement to 
be present by 4:00 a.m. at our ports is often both logistically 
challenging and unsafe; migrants may not know how or have the 
ability to communicate with the U.S. Government that they need 
to postpone due to health reasons; or that the migrants have 
been kidnapped.
    So it seems there are many reasons that someone may not 
appear for the hearing. In our system, it seems to me, you 
should protect those who need it the most. So I would hope that 
we could avoid jumping to unsubstantiated conclusions, and give 
us a better understanding of where we go from here.
    I see my time is almost up. Thank you.
    Mr. Wolf. And I would just say that we continue to work 
with a number of NGOs regarding the program, making sure that 
they have enough information, again, who--they are also 
communicating with the migrants that are in the MPP program. 
And so we will continue to do that.
    One thing that I did shortly after becoming in the chair, 
we heard a number of folks saying that they didn't have access 
to our IHF facilities. These would be individuals that were 
just curious about the program, so, again, NGOs, nonprofits, 
Catholic Charities, and others that wanted to understand a 
little bit better about these facilities.
    So we have done that. They can now come into these areas, 
and even though they may not be part of the proceedings, they 
may not be part of that, they can see what is going on. We are, 
again, not trying to hide anything. We want to make sure that 
we do this in a safe environment.
    So we will continue to work with the committee and staff to 
see how we can improve this program, make sure that folks 
understand what the program is about and what the procedures 
are. And so I commit to doing that with you.
    The Chairwoman. Thank you.
    Thank you, Madam Chair.
    Ms. Roybal-Allard. Ms. Granger.
    Ms. Granger. Thank you.
    As I said, I was at the McAllen border station on Monday, 
and I heard from your people on the ground. While the border 
crossings are down from their peak of last year, the crisis 
hasn't passed, and cartels and criminal organizations continue 
to make a business out of trafficking people and drugs.
    I have visited the Central American countries called the 
Northern Triangle that we have referred to of people coming 
across our border and also to Mexico. I know you were recently 
in Honduras. Can you tell us, give an update on what those 
countries are doing to address the human trafficking, the 
smuggling, and the root causes of this problem of migration at 
the border?
    Mr. Wolf. Well, I was. I was in Honduras last week for our 
12th security ministerial. I believe it was my third one in 
this chair but probably my sixth one overall, being part of 
that.
    We have a number of agreements with the Northern Triangle 
countries, all three of them, on border security, on 
information-sharing, and on asylum capacity. So we are doing a 
number of initiatives with them to build their capacity. It is 
a regional solution; it is a regional problem. And they 
understand that, and they are putting resources to those 
agreements as well.
    So we continue to see progress. We continue to see the 
collaboration is certainly a lot stronger than it has been in 
the past. And it is not only the Northern Triangle. The 
Government of Mexico continues to step up, continues to do 
additional, I would say, enhancement operations on making sure 
that they address the illegal flow of migrants in their country 
as well.
    And so, again, part of the effort here at the Department, 
in addition to some of the programs that we have talked about, 
we also are looking at the source, in these areas, what do they 
need, from a security and stability standpoint.
    And part of that equation is about the prosperity in those 
countries. I think everyone recognizes if those countries are 
more prosperous, if the economic situation improves there, 
individuals in those countries will stay there, and that 
illegal flow lining the pockets of the cartels and the TCOs 
will reduce or eliminate altogether.
    So, through other elements of the U.S. Government--the DFC, 
Department of Commerce, and others--we are also looking at 
economic prosperity investments in those regions to, again, 
build up those economies and the like.
    So there are a number of things that we are doing with the 
Northern Triangle in addition to, again, all the programs that 
we are doing at the border as well.
    Ms. Granger. We have helped them or tried to help them in 
the past, and the leadership in those countries did not do what 
we wanted them to do with our efforts. The difference I saw in 
what is happening with Mexico in helping us, what is going 
across our border, was really very evident and making a huge 
difference. Do you agree with that?
    Mr. Wolf. I do agree. It is almost night and day if you 
look back 2 years ago on the cooperation that we have with 
these governments, up and down, from the Northern Triangle.
    We also included just recently into our ministerial Costa 
Rica and Panama. So we are expanding those that are 
participating, knowing that it is much larger than just the 
Northern Triangle.
    The Department continues to see a number of populations 
crossing the southwest border that causes us concern--
Brazilians, Ecuadorians, and others. And there are only so many 
ways that they get there. And so we need to involve all the 
countries along the route and others to address this problem.
    So we will continue to look at that, but I would agree that 
we have seen quite a bit of improvement from all of the 
countries involved.
    Ms. Granger. And there is a number. When this was at its 
height several years ago, we were counting immigrants coming 
across our border from 51 countries. How many countries are we 
tracking now?
    Mr. Wolf. Oh, it is much higher than that. I wouldn't say 
it is someone from every country, but it is much higher than 
50.
    Ms. Granger. Thank you.
    Ms. Roybal-Allard. Mr. Cuellar.
    Mr. Cuellar. Yes. Thank you, Madam Chair.
    Mr. Secretary, thank you again for the work that you do, 
and your men and women, and we appreciate it. As you know, I 
spend a lot of time--I live on the border, so I spend a lot of 
time with your men and women, whether it is Border Patrol or 
Air Marine, ICE. So I appreciate the work that they do.
    Mr. Wolf. Thank you.
    Mr. Cuellar. A quick question. You mentioned this on your 
statement about the coronavirus. You mentioned, since February 
2, CBP has refused entry to 14 travelers at the ports of entry, 
97 preclearance, and it goes on, including 319 Chinese 
nationals that were attempting to enter illegally. About 194 of 
them were in my area, in the Rio Grande Valley. So, again, I 
appreciate what you all are doing.
    My question is, is there anything extra we need to do to 
protect our men and women in doing their work? I know there are 
already protocols. They have explained it to me already. But is 
there anything else that the committee can help you to make 
sure that we protect the men and women at the front lines?
    Mr. Wolf. Well, that is certainly one of my primary 
concerns when dealing with the coronavirus--not only what we 
are doing to protect the American people but what specifically 
we are doing to protect DHS employees, particularly CBP 
officers, Border Patrol officers, as well as TSOs, TSA officers 
at our airports.
    As of right now, they have all the equipment that they 
need, and that is PPEs, but also we are providing them a lot of 
training and a lot of medical information from the CDC on what 
we know about the virus to date, some best practices on what we 
know about other coronaviruses that are similar. So we continue 
to do that.
    Again, as the medical strategy from CDC or HHS changes, we 
may have to change what we are doing with our officers. But as 
of today, we feel very confident in the measures that we have 
put in place, again, from a variety of different perspectives, 
including the protective wear--gloves and masks and things like 
that.
    So we will continue to do more if the virus and if our 
strategy demands that we do more.
    I will say that the Department continues to spend funding 
that we didn't perhaps allocate for this virus and will do 
that. Right now, we have the money that we need. We may be 
moving money around within this fiscal year, and then we will 
have to see, depending on how long this proceeds and where we 
go----
    Mr. Cuellar. Any dollars you want to take from the wall 
over to that? I would be happy to go ahead and make that 
transfer. I am just kidding.
    No, but, Mr. Secretary--and, again, we were down there in 
Laredo this weekend, and your men and women are doing a great 
job. Sometimes we might disagree with the administration on 
policy, but policy is one thing, but the men and women--we 
support your men and women.
    Mr. Wolf. Thank you.
    Mr. Cuellar. I just want to make sure that you understand 
that comes from our committee.
    Second of all, let me talk to you about the border wall, 
because that is coming down to my area in the Rio Grande 
Valley. My understanding is that in the last 3 years there has 
been only 1 mile of new fencing. Everything else has been 
replacement or secondary miles. But now you are going into a 
lot in Texas where it is owned by private property owners.
    And one of the things that the committee, we added in the 
appropriations was to make sure that we mitigate community and 
environmental impact by getting the consultation.
    Sometimes I think it is symbolic--and I say this with all 
due respect--because none of the people I have talked to have 
given me a pleasant conversation. It is basically, ``We have to 
do this because Congress told us.'' But I haven't seen, except 
for one area that I think, you know, you all are working with, 
on the bulkhead in Laredo, but I just haven't seen, you know, a 
pleasant experience with the landowners.
    As you know, the GAO was in Laredo, in the valley, the last 
couple days to make sure that, you know, we don't abuse the 
eminent domain when it comes to private property rights.
    I just want to make sure that there is a sincere intention 
to really make adjustments to designs or to the placement of 
the fence if it goes that far. That is the only thing I ask 
you. The language has been there. I just don't want a symbolic, 
OK, we checkmark, checkmark, checkmark.
    Mr. Wolf. Well, you certainly have my commitment. I have 
talked to Acting Commissioner Morgan about that as well----
    Mr. Cuellar. And he has been very good.
    Mr. Wolf. I will say that you have his commitment as well.
    Mr. Cuellar. Yes.
    Mr. Wolf. And we have seen that, I believe, in downtown 
Laredo, where we are working with the city on perhaps some 
alternative designs that meet their needs as well as ours.
    Mr. Cuellar. Yes, sir.
    Mr. Wolf. So we will continue to do that.
    You know, obviously, in the RGV Valley, RGV, that is where 
the predominant private land is that the Department as well as 
Army Corps of Engineers, who is doing the work on the ground, 
is out trying to survey the land, trying to assess title, 
trying to do a number of things as we look at conducting that 
border wall system.
    So, yes, I will say that you certainly have my commitment 
to make sure that we bring in the landowners, we have that 
discussion. I think at times there will be some that we just 
disagree with, and we will have to continue that process. But 
we want to be transparent about that.
    Mr. Cuellar. Yes.
    Mr. Wolf. We want to let them know what our requirements 
are and then what their concerns are and have that discussion. 
So you have my commitment.
    Mr. Cuellar. Thank you, Mr. Secretary.
    Ms. Roybal-Allard. Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chair.
    And thank you, Mr. Wolf, for being here today.
    We are all aware of the hard drugs that are coming across 
our border, not just at the points of entry but between points 
of entry. We spend a lot of time on this subcommittee and in 
Congress as a whole talking about the southern border and what 
solutions we can bring to bear to stem this dangerous tide.
    One of the things that is often overlooked is our maritime 
border. Intercepting drugs at our land borders is like a goal 
line stand at our 1-yard line. It is great if we get the stop, 
but where we need to be stopping drugs and smuggling is where 
they begin, at their 1-yard line.
    I continue to brag on the Coast Guard's National Security 
Cutter but with good reason. The Coast Guard is seizing 
millions of dollars of drugs routinely on patrols using the 
National Security Cutter. To date, this committee has funded 11 
of these multimission ships.
    This asset, along with the men and women of our Coast 
Guard, are taking these drugs off the ocean in bulk. This isn't 
a couple kilos of cocaine hidden in a truck or carried on 
someone's back; we are talking about billions of dollars of 
hard drugs that are destined for our communities. The Coast 
Guard seizes more drugs than all other Federal agencies 
combined. Over the past 4 years, the Coast Guard has seized 2 
million pounds of cocaine. That has an estimated street value 
of $26 billion.
    We need more focus on the maritime border and the assets 
that patrol our oceans, so, Mr. Wolf, I would appreciate if you 
could talk about your vision and how you plan to utilize 
appropriated funds to focus operations on drug smuggling in 
South and Central America.
    Mr. Wolf. Well, thank you. The Coast Guard certainly plays 
a vital role there. So when we look at JIATF South out of Key 
West and what they do patrolling from an intelligence 
perspective on the drug flow, the drug traffic coming from 
South America, in the Caribbean, in the eastern Pacific, I am 
happy to report that it is the Coast Guard assets that are 
making those interdictions almost exclusively, between the 
Coast Guard ships, helicopters, as well as CBP helicopters and 
assets as well.
    While JIATF South is an interagency, interdepartmental 
process, a number of intelligence comes into that, but the 
folks on the ground, or in this case in the sea, that are 
making those interdictions are Coast Guard men and women. And 
so I am incredibly proud of what they do.
    Of course, yeah, I would say that the U.S. Government 
doesn't have enough resources to interdict all of the narcotics 
coming from South America. So I thought what was interesting 
one time is, if you put the outline of the U.S. on the eastern 
Pacific and the Caribbean, that is what Coast Guard patrols, 
with a handful of ships. And we will continue to do that, but 
it is a very challenging task.
    And I will also say, that is just one part of it. 
Obviously, when they interdict, the drugs are critically 
important, but it is also the investigators that are then 
talking to those individuals, gleaning information, trying to 
bring them on as sources and the like to, again, get at the 
issue at the source.
    So we will continue to put resources into the interdiction, 
but I would also say the investigation part of that process, 
again, that we do across the country is vitally important. And, 
of course, DHS plays a role there with ICE, Homeland Security 
investigators, but also with DEA and other elements of the U.S. 
Government.
    Mr. Palazzo. Well, I agree 100 percent with your remarks, 
and it just once again reinforces why the National Security 
Cutter is so important.
    I know several of us are disappointed that we had funding--
this committee appropriated funds for a 12th National Security 
Cutter only to see the President's budget remove those funds. 
But they also, in addition, they froze the Fast Response 
Cutters.
    So, you know, removing these drugs before they make it into 
Mexico is vitally important. Once it makes it into Mexico, it 
is pretty much in America. And, you know, I think we could 
afford to, you know, fund these Coast Guard assets more, 
because these drugs are destroying our communities. They are 
destabilizing the countries in South and Central America, 
probably leading to the mass migration that we are seeing at 
our southern border. And it is being driven by trans-
international criminal organizations.
    Mr. Wolf. Well, I will continue to work with the 
commandant, as I did during a little bit of the budget build of 
this one. The commandant's priorities continue to be the Polar 
Security Cutter--again, in the budget request is funding to 
support a second one--as well as the Offshore Patrol Cutter. So 
those are two capital investments that the Coast Guard is 
focused on. Obviously, they still very much believe in the 
National Security Cutter and the mission that they have.
    So it is a budget, like any other budget, where there are 
tradeoffs that have to be made. So we want to make sure that 
they have capability in the polar region as well as the 
Offshore Patrol Cutter capability as well. But we will continue 
to work with Congress on what the right priorities are going 
forward.
    Mr. Palazzo. I agree the Polar Security Cutter and the 
Offshore Patrol Cutter are important. I think we just need to 
maybe look at the demands that we are putting on the Coast 
Guard and what they are doing in protecting our homeland 
security. Maybe we need to fund them more.
    So thank you, Madam Chair.
    Ms. Roybal-Allard. Ms. Meng.
    Ms. Meng. Thank you, Madam Chairwoman and Ranking Member, 
for today's hearing.
    Thank you to all our committee staff for all the 
preparation.
    And, of course, thank you to Acting Secretary Wolf and your 
team for being here today.
    I wanted to ask about an incident that happened in my 
hometown, in New York City, where ICE recently shot an unarmed 
man who was not even a subject of a warrant.
    And then, 2 weeks ago, news outlets reported that the 
administration is deploying BORTAC, Border Patrol Tactical 
Unit, essentially a SWAT team, to raid sanctuary cities.
    You can understand that actions like this cause a lot of 
alarm for our constituents, both undocumented and documented, 
from children to seniors, who fear that these units will 
further terrorize their and our communities.
    The tactical and operational steps involved with 
enforcement at the southern border are really different from 
the steps that these officers would need to take in a heavy-
populated urban area, especially like New York City.
    Has there been an update in policies and trainings for 
these BORTAC teams to ensure that they are not engaged in 
unnecessary and excessive force, especially in urban areas?
    Mr. Wolf. Sure. The individuals, again, that CBP is lending 
ICE in this case for about 90 days, not only comes from BORTAC, 
but also from OFO, so those are the non-Border Patrol parts of 
CBP, so it is about half and half. It is about 50 and 50. And 
all of those individuals that are deploying in a number of 
cities across the country have specialized training that will 
support ICE ERO officers that are going into these communities. 
It is not very--it is very similar to what other Federal 
agencies provide ICE on a daily basis as well. Other Federal 
law enforcement agencies provide that support as well.
    Again, I think there has probably been some misconception. 
These are not individuals that are going to show up in riot 
gear, riding down the street in a tank which I've seen pictures 
of as well. That is not the case. You probably will not be able 
to distinguish them any different than ICE ERO agents or any 
other Federal law enforcement agent that supports ICE. They 
will be in plainclothes. Of course, they will have the 
appropriate vest on that they need to do their job, but they 
will be trained there to support ICE as needed.
    Ms. Meng. Have there been previous deployments of teams 
like BORTAC in recent years?
    Mr. Wolf. There has been deployment of CBP forces to assist 
ICE. I will get you the exact number on BORTAC-specific agents 
over the last several years. I don't have that number with me 
on what we have done in the past.
    Ms. Meng. And then, we read from a New York Times article 
that the deployment reportedly will be from about February to 
May of this year. Just wondering why and how this timeframe was 
chosen. One of our concerns is because it is around the same 
timeframe as the Census, and that it is being carried all 
throughout the country, as you know. There is a lot of fear in 
our communities and in our districts.
    And the timeframe just makes it a lot more challenging for 
the Census Bureau to do their job. And people have 
misconceptions, hopefully, that they are not coordinating with 
law enforcement. I am wondering if you would--sorry I am so 
rushed, and I don't have a lot of time, and I am wondering if 
you would consider halting these raids so that the Census 
Bureau will not be seen as coordinating with law enforcement.
    Mr. Wolf. I can tell you in all the discussions that I have 
had, and that I have had with Commissioner Morgan, I would say 
the timeframe, or maybe the coincidence of the Census Bureau, 
has never factored into that decision-making for us. So it was 
never brought up, at least in any discussions that I have been, 
in regarding this. I will certainly take that back to the team 
to see what we can do to address any concerns about the Census, 
and see what can be done in these specific locations. Again, 
there is only about six to seven cities, I believe, that these 
teams or his--I'm sorry--ICRR are being supplemented by CBP on.
    Ms. Meng. Thank you. Sorry. I just want to get in one more 
quick question, and this is a different topic, the Trusted 
Travelers Program. A couple weeks ago, you announced that DHS 
was suspending the program, which obviously includes global 
entry for New York residents.
    I wanted to ask. Was there any attempt by DHS to 
communicate and to work with New York State officials on 
carving out these exceptions to the ban?
    Mr. Wolf. So as the law is currently written, it does not 
allow any carve-out. So we continue to be in touch not only 
with the Governor, but with other New York State officials to 
reach a solution. I am hopeful that we can. I will say, in this 
case----
    Ms. Meng. Were there prior communications before the 
suspension was announced?
    Mr. Wolf. Yes. We communicated to New York State prior to, 
including a letter prior to the suspension, and again, we did 
not hear from them.
    Ms. Meng. So the New York DMV has stated that there is no 
criminal history information that is held exclusively in their 
database, so I am just wondering what criminal history data is 
only available through DMV. What is the reason for the 
suspension?
    Mr. Wolf. Again, the information that we need, not only for 
the Trusted Traveler Program, but for, again, the wide range of 
the law enforcement mission of the department goes beyond just 
criminal information. And so, there is other data that is in 
that DMV database that is absolutely critical, specifically on 
Trusted Traveler to vet a Trusted Traveler applicant. So you 
have a DUI that is perhaps not a felony conviction, but you 
have an arrest. That factors into the decision-making process 
at CBP on whether that Trusted Traveler warrants the benefit of 
a global entry, for instance, or another program.
    So there is information in the database that not only CBP 
needs for Trusted Traveler, but I would say both CBP and ICE 
needs from a law enforcement perspective. So if ICE, Homeland 
Security investigations is pulling over a car of a suspected 
human trafficker, they need to have access to that database to 
understand who is in that car, who is it registered to, have 
the picture of that individual, and right now, they cannot do 
that, and so it is severely impeding the law enforcement 
mission in protecting New York residents.
    Ms. Meng. Sorry. I yield back.
    Ms. Roybal-Allard. Mr. Newhouse.
    Mr. Newhouse. Thank you, Madam Chairman.
    Acting Secretary Wolf, thank you for being here with us 
today. I appreciate very much your presentation. Also want to 
just take a moment to use this as an opportunity to thank the 
men and women that work in DHS, and for the dedication to the 
mission and protecting our country. We appreciate that very 
much, and we look forward to continuing to be a partner with 
you.
    I wanted to talk a little bit about the role of the 
national laboratories, and how they can be an integral part of 
DHS' work. I heard your response to Mr. Fleischmann's question, 
and I appreciate that. I don't have to tell you that we are 
facing an evolving number of threats, both natural and manmade, 
a lot of different things that are coming at you, so I am sure 
sometimes you feel like the little Dutch boy with your fingers 
in the dike. But a lot of things are happening, especially in 
areas like biodefense and cybersecurity, which you mentioned.
    Mr. Wolf. Right.
    Mr. Newhouse. One way that we have been able to stay ahead 
of the game is through research and development, and that is 
certainly something that the national laboratories, including 
the national laboratory in my district, Pacific Northwest 
National Lab, they have been very active and strong partners in 
biodefense and cybersecurity for a long time. I have been there 
many, many times, as my office has as well, and I just wanted 
to take a moment to extend you an invitation to come and see 
the laboratory and the work that they are doing and how we 
could integrate more into the responsibilities of the 
Department of Homeland Security.
    Mr. Wolf. Well, thank you for that. I will just say that we 
continue, through our S&T directorate, but also our CWMD 
office, utilizing a number of resources outside of the 
Department to include the national labs. I will state 
specifically, when we talk about corona, we have an NBACC 
facility, which is outside of Frederick, Maryland, looking at 
the virus, but they are doing that in conjunction with a number 
of other Federal partners, as well as outside entities.
    So from a departmental perspective, obviously we have a lot 
of threats as you indicated, a lot of needs, and our resources 
only go so far. So how we utilize other elements of the U.S. 
Government, private industry, and the like is absolutely 
critical to making sure that we do our job in securing the 
homeland. So I know that we have agreements, and we have 
relationships with a number of labs, and I am happy to dive 
into that further.
    Mr. Newhouse. That is a perfect segue to my more difficult 
question. The budget request includes significant cuts to R&D, 
both the Science and Technology Directorate, and the Countering 
Weapons of Mass Destruction Office. And as we talked about, 
there is continuing threats and challenges that we face daily. 
The labs, in my opinion, seem very well-suited for this 
mission, and you just talked about the integration of private 
sector technologies. And that is all great. I agree with that, 
but we also have world class facilities within our national lab 
network, so could you address this issue and speak to the 
rationale for these cuts?
    Mr. Wolf. For the CWMD office, it is a relatively new 
office. I believe we are going into our second fiscal year. So 
there was a number of resources provided in fiscal year 2020 
that they continue to utilize. So again, we think the budget 
request for CWMD for fiscal year 2020 helps them sustain their 
work and continues that. For S&T, I believe we fund, in the 
budget request, five of 10 of DHS Centers of Excellence, again, 
focused on some of the national priorities that we have on 
detection, and a number of initiatives and missions for the 
Department.
    I will say it is a tough budget. There are tradeoffs that 
we have to do. We have to make sure that we resource the men 
and women, the operators on the front lines to do their mission 
every day, and making sure that there is enough resources for 
them to continue, our S&T directorate to continue to plan for, 
invest in, and work with them on some of the longer solutions 
and technology solutions.
    So I don't disagree it is a tough budget. We have to make 
tradeoffs. We continue to see value in obviously our Science & 
Technology Directorate. It is also our CWMD office, which is 
right in the middle of our response to the coronavirus, so we 
believe that, again, the budget request, while difficult, does 
make the needed investments in 2021.
    Mr. Newhouse. I appreciate that. And, certainly, we are 
asking the people under you to accomplish an almost impossible 
task, and I appreciate that, but as I said, we do have a lot of 
assets at our disposal, and I just would encourage you to 
utilize them as fully as possible. And again, thank you very 
much for everything you do. And I appreciate you being here 
today.
    Thank you, Madam Chair. I will yield back.
    Ms. Roybal-Allard. Mr. Aguilar.
    Mr. Aguilar. Thank you, Chairwoman, and members of the 
committee. Thank you, Acting Secretary, for being here.
    Mr. Secretary, in January, I visited Matamoros, Mexico, 
where asylum seekers have been forced to camp out as a result 
of DHS' Remain in Mexico policy implemented by your agency. 
This policy requires asylum seekers and migrants to stay in 
Mexico as they wait for their court hearings with immigration 
judges.
    While I visited, I personally saw children and families who 
lack access to medical care, and some were drinking out of 
water sources that have been exposed to E. coli, truly, truly 
awful conditions, and some of them living along the border 
shared their stories that included kidnapping and extortion by 
cartels. Are you aware of the extreme violence along the border 
in regions where people are living because of the MPP policy?
    Mr. Wolf. Yes. I am aware of a number of the statistics, 
the violence, the Department of State warnings. I am aware of 
all of the information.
    Mr. Aguilar. Because Commissioner Morgan was on the record 
stating he was unaware of kidnappings taking place along the 
border. Do you acknowledge that the MPP policy has exposed 
refugees and asylum seekers to serious risk of kidnapping and 
other violent crimes?
    Mr. Wolf. So I am aware of anecdotal information about 
kidnappings and others. I don't have any specific information 
regarding the MPP program and the violence that you described.
    Mr. Aguilar. OK.
    Mr. Wolf. I guess my statement was more general. I am aware 
of the general violence.
    Mr. Aguilar. Sure. Sure. OK. Well, let's get beyond 
anecdotal, then. Human Rights First identified at least 816 
incidences of torture, rape, and murder among asylum seekers 
sent back to Mexico under the current policy. One woman from 
Honduras detailed how she was abducted by Mexican police and 
raped. Another man from Cuba was sent back to Mexico after 
spending 40 days in detention, only to be assaulted and robbed 
at a local store. An asylum seeker from Guatemala was sexually 
assaulted in front of her 4-year-old son. These are just a few 
of the cases documented by Human Rights First, so this is 
beyond anecdotal.
    This is not the only organization that has documented these 
instances. Doctors Without Borders, I am sure you are familiar 
with that organization, earlier this month, issued a report 
that included the following findings: Eight out of 10 patients 
treated in Nuevo Laredo by Doctors Without Borders were victims 
of violence, eight in ten; 43 percent of all patients treated 
experienced violence in 7 days before consultation with Doctors 
Without Borders; in 2019, 43 percent of patients treated were 
returned to Mexico through the MPP program had been kidnapped; 
and in October of 2019, a percentage of kidnappings among those 
returned had increased by 75 percent.
    Considering this data, can we move beyond saying that this 
is anecdotal? This is happening. This is real. Organized crime 
is playing a role along the southern border, and this is a 
direct consequence. This is a direct correlation to MPP. Would 
you not agree with that?
    Mr. Wolf. I would agree that the journey, and we have 
talked about it for a number of years, is very dangerous for 
these asylum seekers, or for any other economic migrants, or 
for a variety of different reasons that they are choosing to 
come to U.S., it is a very, very dangerous journey. Any time 
you pay a smuggler, a cartel, or a TCO to make this journey, 
they are in it for the bottom dollar, and so, yes----
    Mr. Aguilar. But not all of them are paying smugglers. I 
mean, we can move beyond that. But you don't acknowledge that 
the proposals, that the policy----
    Mr. Wolf. And so, what I would say is we continue to 
encourage those individuals that are seeking protections, 
whether it is in El Salvador, Honduras, Guatemala, seek those 
protections as close to home as possible, so you that don't 
have to make this dangerous journey as you are describing, 
Congressman, you know, through parts of Mexico that are coming 
to the border.
    Now, when we talk about specifically MPP, I will certainly 
address that. We are working with our Department of State 
colleagues and other elements of the U.S. Government to provide 
resources. To date, we have provided about $20 million through 
the Department of State to the government of Mexico for MPP 
shelters that includes security for access to transportation. 
If they choose not to stay in the MPP program, we do provide 
some assistance to have them returned home and the like.
    Mr. Aguilar. Sure.
    Mr. Wolf. So the U.S. Government is going above and beyond 
on trying to help the government of Mexico provide these 
shelters along the MPP locations.
    Mr. Aguilar. Well, I think that there is plenty more we can 
do. The administration has requested $126 million for MPP. How 
much of this, as you mentioned, some of the--I would call that 
kind of humanitarian work that has been done. How much of the 
$126 million will be directed towards these humanitarian 
concerns at the border that would generally address the well-
being of asylum seekers?
    Mr. Wolf. That funding comes from the State Department. So 
again, we work with our State Department colleagues who have 
different sets of funding, different sets of buckets that they 
provide mainly to UNHCR and IOM to provide that--
    Mr. Aguilar. I think everyone on the dais is aware of the 
funding, the different agencies that are responsible for this 
funding. So out of the $126 million, none of that is going 
toward the well-being. It would be through State or through 
other agencies that would provide the funding related to well-
being.
    Mr. Wolf. Right. Again, they have the mechanisms to apply 
that funding. Obviously, our funding comes with certain 
restrictions, making sure we that apply that to our operations. 
We are working with State Department. We continue to work with 
State Department to fund additional services at those MPP 
sites, again, through UNHCR, through a number of NGOs that will 
go in there, and we will continue to build that capacity and 
talk to the government of Mexico about that.
    Mr. Aguilar. I appreciate it.
    Thank you, Madam Chair. I yield back.
    Ms. Roybal-Allard. Mr. Rutherford.
    Mr. Rutherford. Thank you, Madam Chair.
    Mr. Secretary, I thank you for being here this morning, and 
I first want to also say thank you to all the men and women of 
DHS for all that you do. And particularly, I want to thank you 
for the 287(g) program that you continue to push. I can tell 
you as a lifelong law enforcement officer, that enhanced the 
safety and security of my community. We removed thousands of 
violent criminals as a result of that program within our jail, 
and these were bad, bad people. And when I see the numbers that 
you have talked about here today, 40,000 arrests, 4,300 gang 
members, 450 just from MS-13, that is amazing. And so, as 
appreciative as I am of that, I am also appalled at the 
sanctuary city concept that endangers citizens back home by not 
working with ICE to remove these kind of criminals from our 
streets, so I just want to start with that.
    One thing that does concern me, though, JAXPORT in 
Jacksonville, Florida, is a very large container port, and in 
fact, we moved over 10 million tons of goods just last year. 
And one of the questions that I have is, can you tell me what 
percentage of our cargo is actually being inspected through the 
non-intrusive inspection process countrywide?
    Mr. Wolf. Oh. Countrywide?
    Mr. Rutherford. Yeah.
    Mr. Wolf. I have some of that data for the southwest 
border. I would probably need to get back to you countrywide on 
NII detection. It is relatively low on the southwest border. We 
have funding that Congress provided in fiscal year 2019 and 
2020 that we are deploying over 400, or actually higher NII 
systems that will go mainly at the southwest border to 
interdict those drugs and other illegal contraband. So I have 
much more clarity on those numbers. I can get back to you on 
nationwide at every port, what NII, how much it screens.
    Mr. Rutherford. Well, I'd like to see that, because I think 
the numbers are pretty low is what I am hearing. And, really, 
if you think about it, these ports, particularly where we have 
these containers coming in, it is almost like the Trojan horse 
going in, you know, the city of Troy. We are inviting these 
things in.
    Mr. Wolf. Right.
    Mr. Rutherford. We have no idea what is inside a lot of 
them. And so, I would like to follow up with you on that if you 
don't mind.
    And last year, we appropriated almost $60 million for this 
equipment as you mentioned. What is in this year's budget for 
that? Do you know right offhand?
    Mr. Wolf. The money in the fiscal year 2020 budget is for 
maintenance and support of that. So, again, we had $60 million 
in fiscal year 2020 as you indicated, Congressman.
    Mr. Rutherford. Right.
    Mr. Wolf. $570 million that Congress provided in fiscal 
year 2019, so that is a total of over $660, both large-, 
medium-, and small-scale NII. That is a lot of money. That is a 
lot of equipment that is going to be rolled out over a period 
of time. We hope to have the majority, if not all of that, 
fully deployed by 2022.
    Mr. Rutherford. OK. And the PBR this year, what----
    Mr. Wolf. This year, it is a little over $140 million, 
again, for support of that equipment.
    Mr. Rutherford. OK. Thank you.
    Over the last 3 years, under President Trump's 
administration, how many miles of border wall have we actually 
built? You know, you hear these numbers back and forth. I don't 
care if it is replacement or new, but how many miles total?
    Mr. Wolf. Today we have been 126 miles completed, and that 
is of new border wall system. And I always say that that is new 
wall because it provides our agents new capabilities that they 
have not had before.
    Mr. Rutherford. Right. OK. And how much have we actually 
invested in the technologies to help with that, because it is--
you know, after--you still need to detect these folks once they 
may come across.
    Mr. Wolf. Correct. I talk about the border wall system. So 
within that system is not only the physical infrastructure of 
the wall itself, but it is cameras, it is roads, it is 
lighting, it is fiber optic cables. It is the whole package 
that CBP and the Army Corps puts in along that southwest 
border.
    So again, we have 126 miles completed. We have 213 miles 
under construction, and another 414 in a preconstruction phase, 
so we are getting at it as quickly as possible.
    Mr. Rutherford. OK. And you have talked today about the--I 
am sorry. Am I that far over on my time? Yeah. That threw me 
off.
    But if I could ask one last question. The President, in his 
PBR this year, has asked for $2 billion for a border wall. We 
know it is having an impact along with the technology because 
we see those numbers going down that you addressed earlier. Is 
that adequate for you?
    Mr. Wolf. It is. With the fiscal year 2021 budget requests, 
and again, monies that we have in 2017, 2018, 2019 and 2020, we 
will have over 570 miles of what that funds. We will continue 
to look at what we need, along with Congress, going forward. We 
have a border security improvement plan that CBP is working on 
to update. I believe the last one--Congress has the last one.
    Mr. Rutherford. I think some saw this as kind of a pullback 
from wall commitment, and it is absolutely not.
    Mr. Wolf. No.
    Mr. Rutherford. It is still----
    Mr. Wolf. I think you have to look at the totality of 
funding that we have gotten over the last several fiscal years. 
It is not just looking at the President's budget request for 
one year. You have to look at it in totality.
    Mr. Rutherford. Right. Thank you.
    I yield back.
    Ms. Roybal-Allard. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    Welcome, Mr. Secretary. Let me ask you another question 
that has multi-department aspects, but, nonetheless, one that I 
hope you can answer because Homeland Security's role is a key 
one. It has to do with refugees.
    In fiscal 2020, the Trump administration set a refugee 
admission ceiling of only 18,000 individuals. That is the 
lowest refugee admission ceiling by any administration in the 
program's 40-year history. And it comes on the heels of two 
previous historically low ceilings of 45,000 and 30,000 
refugees in fiscal 2018 and 2019, as well as the 2017 executive 
order that halted our entire refugee program for 120 days.
    Not only is an 18,000 refugee ceiling shockingly low, but 
currently, almost halfway through the fiscal year, the United 
States has admitted only about 5,000 refugees. That is less 
than 30 percent of an already low ceiling. That puts our Nation 
on track to admit a total of only about 10,000 refugees in 
fiscal 2020, which would be a complete dereliction of our duty 
to the world's most vulnerable, as deadly wars and political 
and religious persecution are increasing around the world, 
producing 70.8 million forcibly displaced people worldwide 
currently, and 25.9 million refugees.
    Now, we have all heard the reports of bureaucratic slow 
walking, administrative barriers, a lack of adequate staffing, 
bureaucratic rerouting of paperwork, drastic reductions in 
circuit rides, the closure of USCIS international offices, so-
called security measures, enhanced security measures. Together, 
all of this seems intentionally designed to prevent our Nation 
from accepting any more than a trickle of refugees. I hear 
about this at home because I have wonderful organizations that 
participate in refugee resettlement. They want to fulfill their 
promise to help integrate refugees in North Carolina, but they 
go weeks without seeing a single refugee. This is totally, 
totally unprecedented.
    So how can you explain the fact that we are almost halfway 
through the fiscal year, and have admitted less than half or a 
third of the refugees we pledged to take in? Is my projection 
of 10,000 unrealistic as to what this is going to look like at 
the end of the year? And this is taking place during one of the 
worst refugee crises in world history.
    And what about these various bans, administrative obstacles 
and duplicative waiting requirements? Do they really reflect 
some increasing danger? As you know, refugees have committed no 
terrorist acts, none, zero in recent years. What leads you to 
conclude that the security measures have been inadequate, or 
what is going on? How has that changed?
    And if it has changed, why does our country seem unable to 
determine the danger without just stopping the flow entirely? 
Why don't we have an appropriate vetting system to deal with 
this, and to, yet, due our duty to fulfill our obligations as a 
member of the international community to deal with this 
international crisis?
    Mr. Wolf. Well, Congressman, I would say that we are one of 
the only countries that distinguish between refugees and asylum 
seekers, so I think you have to look at the protections that we 
provide and the totality of, not only the refugees that the 
Department is vetting, but also the asylum seekers that we 
process each and every year. So looking in that totality, we do 
allow historic numbers and provide protections to historic 
numbers. Regarding the 5,000----
    Mr. Price. Historic numbers, like what? How does that--you 
are telling me that really invalidates the importance, or the 
significance, of these historically low numbers I have cited. 
If that is the case, please correct the numbers.
    Mr. Wolf. Again, I am happy to get you the numbers where we 
look at both the refugees and asylums--asylum seekers and 
asylum cases that we adjudicate each year. Again, I go back to 
my statement earlier. We are one of the only countries, there 
may be one or two others, that distinguish between those two 
populations, and they are seeking----
    Mr. Price. And you are suggesting that our treatment of----
    Mr. Wolf. They are seeking protections that are very 
similar granted to----
    Mr. Price. Well, a lot of this hearing this morning has had 
to do with the treatment of asylum seekers.
    Mr. Wolf. I understand.
    Mr. Price. It is astounding that you would be claiming that 
our treatment of asylum seekers somehow compensates for our 
shutting the doors to refugees. I really would like to see 
those numbers, and I just don't understand the argument that 
somehow we are doing so much to open the door to asylum seekers 
that these disgraceful refugee numbers are meaningless, or need 
to be corrected.
    Mr. Wolf. I am happy to, again, get with the Department of 
State on your 5,000 versus the 10,000 projection. We obviously 
play a role in vetting the refugees, but that is a Department 
of State program that I am happy to touch base and provide some 
more information on where they see those numbers going, and I 
have no information that says we will not reach the 18,000 
number.
    Mr. Price. On what increased danger is this based? I mean, 
am I wrong about the failure of the administration or anybody 
else because the facts aren't there to associate refugees with 
acts of terrorism?
    Mr. Wolf. I will say----
    Mr. Price. So what is the reasoning here for slowing this 
flow to a trickle? Is it a matter of security, or is it 
something else?
    Mr. Wolf. It is. I will say that a number of the security 
measures that we put in place in 2017 and 2018 were real. There 
were vulnerabilities in the system. There continue to be 
vulnerabilities in the system. I am not going to go into it in 
this setting, but there continues to be vulnerabilities that we 
see in that program that we want to address. We want to make 
sure that it continues, but we need to make sure that the 
individuals that are coming here are fully vetted and that we 
understand who they are. So we will continue to get at it. We 
will continue to increase not only the processing and the 
security vetting that we do, but making sure that we have 
resources dedicated to that.
    Mr. Price. Thank you, Madam Chairman.
    Ms. Roybal-Allard. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Welcome, Mr. Wolf. By way of reference, you may not be 
aware that my role on Appropriations is that I chair the 
Military Construction and Veterans Affairs Appropriations 
Subcommittee, so it is primarily my job to make sure that our 
servicemembers and our veterans have everything they need, both 
during their active duty service, and once they leave active 
service.
    I am not sure you understand the burden on our 
appropriators in terms of the quality of life of our 
servicemembers, and also making sure that we protect the 
billions of dollars in equipment that the United States funds 
every year to keep us safe, because otherwise, why would your 
department steal $3.6 billion in military construction funding 
that was approved, asked for, and signed by the President into 
law, and $2.5 billion in defense money last year for the 
President's racist border wall?
    And why would you steal a whopping $3.8 billion in defense 
funds again this year? That money was for F-35 fighter jets, V-
22 Osprey tilt rotor aircraft, and National Guard and Reserve 
equipment, just to name a few. What that tells me is that the 
Trump administration fears poor, persecuted families coming 
across the border more than they fear Russia, China, or any 
other foreign adversary.
    So after the administration's outright theft of funding 
from our troops once before, how can you possibly justify 
requesting another $2 billion in congressionally appropriated 
funding for fiscal year 2021, and why would you bother 
requesting more funding through the regular order of the 
appropriations process when we both know that you are just 
going to break into the Pentagon and steal it again, which you 
already have started to do during this fiscal year?
    Mr. Wolf. What I would say, and I think the administration 
has been very clear on this, is that border security is 
national security, so the President----
    Ms. Wasserman Schultz. That is not my question. How is it 
more important than the money that is already appropriated?
    Mr. Wolf. I have talked with Secretary Esper on multiple 
occasions, and he is supportive of using this funding for the 
border wall system. We continue to have great partners at DoD, 
not only active duty, but National Guard, providing a number of 
capabilities on the southern border. It goes back to my initial 
comment where border security is national security. I think the 
President recognizes this, and, again, it is a whole government 
effort.
    Ms. Wasserman Schultz. I think the overwhelming majority of 
the American people, Members of Congress, and military 
leadership, despite what you say about Secretary Esper, 
understand that protecting our troops, making sure that they 
are ready, protecting our overall national security, and not 
just trying to unsuccessfully block poor people who are fleeing 
persecution from other countries is a much more dire and more 
significant national security issue than putting up a lame wall 
that isn't going to keep dangerous people out anyway.
    And despite that being--it is important to note for the 
record, despite this being the President's flagship political 
issue, nearly all the barriers that Mr. Trump has built are 
replacement barriers. When he leaves office in January, Trump 
will be nowhere close to building a wall that covers the 
southern border, so you have already failed. And I know you may 
not care, he may not care, but I want people to know where this 
money is being stolen from to pay for this absurd border wall. 
Keeping our troops' children in run-down crowded schools in 
Fort Bragg and Fort Campbell, preventing a replacement for a 
moldy, rat-infested childcare center at Joint Base Andrews, the 
wall has already taken money from a wildfire flight simulator 
in southern California, and a drone pilot training facility 
that has sinkholes and bats.
    I personally have traveled with many members of this 
subcommittee around the world and looked at rusted hangars that 
literally have to have their doors bound together with wire in 
order to make sure that they don't damage the billions of 
dollars that they are designed to protect. This is a tiny 
sample of the sacrificed projects from the money you stole for 
this boondoggle of a border wall.
    Now, Mr. Wolf, I know that the President doesn't care about 
our military enough to actually protect them and their 
families, but don't you agree that canceling necessary and 
overdue projects for our men and women in uniform is 
detrimental to their quality of life and readiness? And don't 
you worry about the terrible precedent that this sets?
    Mr. Wolf. Again, I have had numerous conversations with the 
Secretary of Defense regarding this.
    Ms. Wasserman Schultz. I am asking what you think, not what 
Secretary Esper thinks.
    Mr. Wolf. What I would say is that the violence that we 
see, and I talk to the law enforcement community across the 
southwest border. I think some of those comments trivialize the 
violence that they see that they have to deal with on the 
southwest.
    Ms. Wasserman Schultz. Including a border wall to block 
that is more important than any of the money that----
    Mr. Wolf. I would say we have competing priorities, and we 
will continue to balance those. The President has made a 
decision, and we continue to operate and continue to build the 
border wall system to reduce that--
    Ms. Wasserman Schultz. OK. Reclaiming my time.
    What is evident is that Mr. Trump's fake professed love of 
the military has been absent. It was all a scam. And this is 
what happens when you elect someone and allow someone who is as 
inept as he is run the government of the most powerful Nation 
on earth that is supposed to be protecting our men and women in 
uniform, who are working every day to protect us. It is called 
a kakistocracy. Look it up if you need to. And I yield my time.
    Mr. Wolf. I would say that there is no bigger supporter----
    Ms. Wasserman Schultz. I yield my time. Thank you.
    Mr. Wolf. Chairwoman, may I respond?
    Ms. Wasserman Schultz. No. I have yielded back. Thank you.
    Ms. Roybal-Allard. You will have an opportunity to respond 
when we go to the second round. This completes the first round.
    Mr. Secretary, despite guidance that vulnerable populations 
are not amenable to placement in the MPP program, CBP is still 
sending pregnant women, persons with disabilities, including 
children and LGBT migrants back to Mexico, an unfamiliar place 
where a vast majority of the migrants to wait months for the 
immigration court proceedings.
    Just a few weeks ago, CBP placed a family into the program, 
that under any reasonable definition, should have been 
considered vulnerable based on the medical condition of one of 
the family members, a 7-year-old girl who has lissencephaly, a 
seizure disorder, and is severely developmentally delayed. She 
needs daily medications, but still has seizures every 10 days 
and has a life expectancy of only a few more years.
    Nevertheless, you refuse to reverse the decision to place 
the family into MPP, and so they will be in Mexico for months 
in squalid conditions awaiting their immigration hearings. Your 
reasoning for not helping this child was reportedly that you 
did not want to contradict CBP's field personnel, but this is 
not an operational issue. It is a policy decision, and you are 
the political appointee who makes policy decisions.
    Under current CBP guidance, is a family like this really 
amenable to placement into MPP, a family with a child who has 
life-threatening medical conditions? And if not, who is 
considered medically vulnerable enough under CBP guidance to 
not be amenable to placement in the program?
    Mr. Wolf. We certainly do allow our CBP officers guided by 
policy to make those decisions, and, so, part of that 
characterization is accurate. What I would also say is that we 
look at populations that need emergent care, life-threatening 
care, and we provide that, and we parole--CPB paroles, ICE 
paroles individuals into the country every single day.
    What we have to make the decision on, lots of times, is 
chronic illnesses, chronic disease versus life-threatening and 
emergent response that they absolutely need. And, so, our CBP 
officers, the port director at those MPP facilities, make those 
decisions every day guided by policy.
    Again, we have talked about this. I know I have talked 
about it. Our staffs have talked about this. Happy to clarify 
if you believe further clarification is needed. But again, we 
want to make sure that we provide that latitude to our CBP, to 
our port directors, to make that call on what is emergent, 
life-threatening versus what is just a chronic illness that can 
be provided for in other locations as well.
    Ms. Roybal-Allard. Well, this is a chronic illness that the 
child has where she has seizures every 10 days and needs this 
medication. And unfortunately, in choosing to send this 
chronically ill, severely disabled child to Mexico, the 
Department made no effort to ensure that she will get the 
treatment and the care that she needs. So do you really think 
that it is OK for the Department to wash its hands of the 
welfare of these returned migrants?
    Mr. Wolf. Again----
    Ms. Roybal-Allard. Because, you know, we talk about this 
country, that country, they are going to help, OK, so we send 
them there. But we just wash our hands. And you heard from Mr. 
Aguilar the conditions under which they are living and what is 
happening to them.
    Mr. Wolf. You know, I would not----
    Ms. Roybal-Allard. How would you----
    Mr. Wolf. I would not agree that we wash our hands of any 
matter. Any time they are in MPP, as we indicated, I indicated 
earlier, they come back into the U.S. for those proceedings. 
They get medically screened each and every time they come back 
into the U.S. And, so, each and every time, they get assessed 
again by medical, mostly contract professionals and CBP 
officers, about their condition, if it has changed, if it has 
worsened, every time they come back in. So I would disagree 
that we wash our hands of the matter. We are allowing CBP 
officers----
    Ms. Roybal-Allard. They could be there for weeks or months, 
and we do nothing to address the conditions under which they 
are living, which have been already described by Mr. Aguilar.
    Mr. Wolf. Again, I would say that, again, we are working 
with our Department of State colleagues, we provided over $20 
million for those facilities to help, again, some of the NGOs, 
UNHCR and IOM, to go in there to construct those facilities, to 
improve those facilities, provide security for those 
facilities.
    So, again, there is a number of things the Department is 
doing, not only ourselves, but again, with some of our other 
agency colleagues to address MPP, to continue to improve the 
MPP program.
    Ms. Roybal-Allard. Well, something is clearly not working, 
given what is actually happening. And do you have any metrics 
or other data to show that the CBP personnel understand and are 
following the guidance related to vulnerable populations?
    Mr. Wolf. Data that shows that they understand? I am not 
sure I understand the question.
    Ms. Roybal-Allard. Well, I mean, isn't----
    Mr. Wolf. Are you asking for data, how many folks they let 
in or----
    Ms. Roybal-Allard. No. That they understand how to evaluate 
whether or not someone should, or can be sent to MPP. I mean, 
do you have that--do they understand--do they have the 
guidance?
    Mr. Wolf. I am happy to go back and look at both the 
guidance and the training they are provided, and we are happy 
to provide that to the committee. I don't have that here with 
me today.
    Ms. Roybal-Allard. OK. I would appreciate that, thank you, 
because it appears that they do not.
    OK. Mr. Fleischmann.
    Mr. Fleischmann. Thank you again, Madam Chair.
    Mr. Secretary, again, I want to thank you for being here 
today, and for your well-reasoned responses to our questions. 
Really, you have got an arduous task, carrying out the 
administration's requests, largely which I agree with, so I 
wanted to thank you and the men and women who are dedicated to 
doing that.
    As you know, Congress passed the REAL ID Act more than 14 
years ago, and the deadline for compliance is about to come up 
in October. From my understanding, a majority of Americans 
still don't have a compliant ID, and many don't even know they 
need one. My first question, sir, is what the Department doing 
to get out the message to the American people and make sure 
folks get a REAL ID? And I will ask--I have got a series of 
questions, but we will start with that one, sir.
    Mr. Wolf. So thank you. We are doing a robust 
communications plan both at headquarters and at TSA. We have 
individuals engaged on that, reaching out to a number of 
stakeholders, particularly focused on the transportation 
industry and the aviation industry.
    As you indicated, individuals that are wanting to fly 
commercially in October 2020 need to have a REAL ID, so they 
need to see that star on their driver's license to do that. 
Unfortunately, right now, we are about at 35 percent of IDs 
that we see out there in circulation are REAL IDs, so that is a 
relatively low number.
    As we look towards October 2020, we believe that, you know, 
the States have had 14 years, as you indicated, Ranking Member, 
to roll this out. We believe that is enough time. This is a 
security issue. We encourage them to continue to issue cards. 
All 50 States and territories are compliant, but not everyone 
is issuing cards. We still have some States that have not 
issued REAL ID cards. So the prospect of them being able to 
issue all of their constituents in that particular State, a 
REAL ID by October 2020 is probably fairly small.
    So the Department is trying to do a number of initiatives. 
One action that I took, I think it was about a week and a half 
to 2 weeks ago, is to allow individuals coming into DMV to 
submit their documents electronically to DMV before they 
arrive, so DMV can take a look at that and say, yes, these are 
the documents you need, or these are not the documents you 
need, and we can cut out some of the back and forth that we 
hear.
    We would like to do more. We are taking a look at more 
things that we can do, and we may be back to Congress at some 
point asking for some legislative relief to that 2006 law which 
is very prescriptive. There were no smartphones at the time, so 
the idea of being able to transfer information electronically 
at the time was not contemplated.
    So we will continue to look at that. We will continue to 
assess the compliance rates. We are asking for information from 
all States on a monthly basis to determine as we move closer 
and closer to that October 2020 date, what will be the state of 
compliance.
    Mr. Fleischmann. Well, thank you. So as a follow-up, then, 
Mr. Secretary, there is a recognition that there may need some 
type of request for additional time for compliance by the 
States on your part, or on the part of the Department. Does the 
Department intend to develop any alternative screening 
procedures for airline passengers arriving into airport without 
a REAL ID or acceptable alternatives beginning October 1st?
    Mr. Wolf. So we talk about that issue quite often with TSA. 
TSA, as you know, they don't struggle. They do a very good job 
adjudicating the passengers that they have in line today. They 
are not set up, they are not resourced to adjudicate IDs of 
thousands of thousands, perhaps, millions of passengers come 
October 2020, so yes. They are continuing to look at 
operational solutions. I will say, none of those solutions are 
good.
    What we are focused on at the Department is making sure we 
get enough of the REAL IDs out there into individuals' hands to 
continue to push that. What we are doing today at TSA 
checkpoints is there is signage up. There is videos up. Each 
TSA officer, when they get presented an ID that is not REAL ID, 
they remind that passenger if you don't have a REAL ID, you 
should go in and get it.
    We are also trying to push messaging that come October 
2020, you need a REAL ID, but there are other alternative 
forms. There is a passport. There is a military ID. There are 
other alternative forms that you can show up at the airport and 
utilize as well, so we are trying to blanket our 
constituencies.
    Mr. Fleischmann. Thank you, sir. My time is waning, so I 
will be very quick.
    Customs and Border Protection has pursued a successful 
public/private partnership with airlines and airports to meet 
Congressional mandate for biometric exit and entry. These 
deployments also create opportunities to improve the efficiency 
and effectiveness of your operations. These achievements have 
been important test beds for these technologies that can be 
utilized in other applications within CBP and throughout DHS.
    Very quickly, sir, how do you foresee the development of 
facial recognition technology expanding in fiscal year 2021, 
and beyond entry for exit air and sea borders?
    Mr. Wolf. CBP continues to work on the exit part of the 
entry/exit program using a variety of biometrics. TSA, I would 
say, is also very interested in learning what CBP is doing from 
their pilot phases. It is also looking at some of that 
biometric technology on how they can apply that at the 
checkpoint as well to utilize, again, some of the experience, 
some of the backbone of that.
    So my job at the Department is seeing what Centers of 
Excellence that we may have at CBP that are doing biometrics 
and facial recognition, particularly on that air exit side, and 
how we can scale that across the Department at TSA and some of 
our other travel programs that we use.
    Again, I think any time you talk about biometrics and 
facial recognition, we have got to talk about privacy, and so 
that is something that the Department keeps, you know, very 
focused on, making sure as we roll out these programs, that we 
are keeping U.S. citizens' privacy protected, civil liberties 
protected, and that is something that we hear about at the 
Department as well with these programs.
    Mr. Fleischmann. Thank you again, Mr. Secretary.
    Ms. Roybal-Allard. Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chair, and again, Mr. 
Secretary, appreciate the work that you and your men and women 
do. We support them. Sometimes we disagree on the policy, but 
that is nothing on our support to the men and women.
    Let me go back to the wall issue in our area. One of the 
things I would ask you: When you look at a map from Washington, 
D.C., and look at the border, it is so easy to say I want new 
miles here, new miles over here. It is very easy to do that. 
But once you drill in and you see what is there and the people 
that live there, and some of them have lived there for 
generations, you see some historic areas.
    For example, one of the areas that y'all are looking at is 
the Trevino-Uribe Rancho which is a national historic site. 
They are in San Ygnacio, Texas. San Ygnacio, in 1972, was 
listed on the National Registry of Historic Places. And I am 
looking at your preserving cultural resources web page on that, 
and just ask you to make sure that we really follow the rule 
and the spirit on that. You know, I have added language--we 
have added language to say no funds will be used on historical 
cemeteries, a chapel, and I think there is six different 
exceptions that we have been able to add there.
    So I would ask you all just to not look at this from 
Washington. It is so easy, you know, for Members of Congress or 
administrators just to look at it and just see a border. It is 
a lot more. There are real people there, real historic areas. I 
would ask you to just please take a look at--I mean, including 
the Laredo Community College. I mean, I have been emailing with 
my president there, and there is an old historic fort there, 
where the Army used to have this fort, and they are already 
asking the right-of-way request to have access, and it is right 
there by this historic fort. So I would ask your folks to just 
be a little bit more sensitive to look at that, number one.
    And then if I can ask you a second question and ask you to 
answer that when I finish. But the other thing is, the two 
things that Mexico wanted from the United States was the USMCA, 
which we have done. We passed that. But the other thing was to 
help them stop the illegal arms from going into Mexico. And I 
know there has been different attempts, and I had the 
chairwoman down there. We were talking to Mexican officials. 
They said that is our number one issue.
    I don't know if you can come up with an idea, because I 
know there has been different thoughts that we have looked at, 
you know, do we put some sort of technology, do we put 
personnel? I know because most of it is going north, of course, 
but if there is something else we can do, I really would 
appreciate your thoughts on that.
    Finally, the last question is MPP. The city of Laredo--I 
would like to meet the person who made this decision for you. 
You were not here, but the city of Laredo offered them for $1, 
18 months of a facility that is right there. We met with them 
on a Thursday. By Monday morning, they just disregarded 
everything we said. When I asked them how much money they were 
going to spend, they couldn't tell me. They knew, but they 
didn't want to tell me. And actually, it was--literally, it 
would be a $70 million contract, $35 million in Laredo where 
they put this in an area that is has flooded in the past. They 
did it before the International Boundary Water Commission gave 
them the OK. They started doing that. I called the 
commissioner. She had no idea. A little bit after that, they 
got given the OK.
    So I mean, I can understand, you know, we are moving fast. 
It was before you were there, but $1 for 18 months, a facility 
that would have been a better place for y'all, a better place 
for the people that are coming in through the MPP program, but 
they decided to spend $35 million to put tents there.
    Now, they said, Well, we don't know how many people are 
going to come in. You know the numbers. 50 percent of them are 
not going to show up. I can tell you why. Some of them thought 
they were just going to walk in and say, Hey, I go in, right 
into the United States, and you know, except for Cubans, 
Venezuelans, people from other places, Africa, that traveled a 
long way, the rest are saying I thought I was just going to go 
into the U.S. I mean, that is one of the successes of the MPP.
    But I just cannot understand when the city of Laredo was 
able to say we will get this done as fast as you want it for 
$1, and I really would like to meet your person to say why were 
you willing to spend $35 million in Laredo when it could have 
been done for $1. I would like to meet that person. Nobody 
seems to tell me--nobody wants to take the responsibility, but 
$35 million is wasted taxpayers' dollars. And again, I am not 
blaming you, Mr. Secretary.
    Mr. Wolf. Yeah.
    Mr. Cuellar. I look forward to working with you, but it is 
just a little frustrating.
    Mr. Wolf. Well, I appreciate you raising that. That is the 
first time I have heard that, particularly the Laredo facility, 
the MPP--or the facility and that contract. So I will take a 
look, I will certainly inquire and see if there were valid 
reasons or not into that.
    On the southbound weapons, yes. That is a topic of 
discussion that we have often with the Government of Mexico. I 
have talked to AG Barr about it as well. I think there is 
obviously a lot that the Department can do from a CBP 
perspective as well as an ICE his perspective on the 
investigation front, but we also need ATF, DEA. We need other 
elements. And that is what we are pulling together, both with 
DHS and with the Department of Justice. And Commissioner Morgan 
has thought this through, and is outlining a program to 
enforce--or, sorry--increase southbound--it is inspections, but 
it is also just investigations as well. The inspections are 
good, but they are easily defeated, as I am sure you know. You 
set up a checkpoint, and the word gets out, and they just go 
around.
    So they are trying to get it at the source. They are trying 
to get, you know, if they are buying weapons in bulk in, you 
know, other places in the country, in Oklahoma, Kansas, and 
elsewhere, trying to work with the ATF to determine those types 
of purchases to see and then tracking those and trying to get 
it at the source that way. So there is a number of things that 
we are doing both on the detection side, but also trying on 
that investigative side.
    Mr. Cuellar. Give us a plan, and we will work with you. 
Thank you. We will talk about the wall at a later time. Thank 
you, Mr. Secretary.
    Mr. Wolf. Thank you.
    Mr. Cuellar. Thank you.
    Ms. Roybal-Allard. Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chair.
    You know, something that I like to bring up in these 
hearings, whether it is DoD or Homeland Security, is a 
conversation about the Jones Act. Are you familiar with the 
Jones Act?
    Mr. Wolf. I am. I am familiar with it.
    Mr. Palazzo. I think I have been one of the most outspoken 
advocates in my 10 years of serving in Congress, because I 
believe it to be truly important to our national security, but 
I would like to briefly hear in your own words why you think 
the Jones Act is important and to protect the Jones Act and not 
to weaken it with waivers.
    Mr. Wolf. Right. So obviously, the Jones Act is there to 
make sure that we protect U.S. businesses, U.S. interests there 
that provide those capabilities along the coast to offshore 
facilities. And so, we have the Jones Act there to protect 
that. I am a supporter of that, a strong supporter of that. 
Obviously, CBP has a role when we talk about waivers to that. I 
think historically CBP has offered very, very few waivers, if 
at all, and a couple of those are in extraordinary 
circumstances. I know it was during some hurricanes back in 
2017. I believe it was Harvey that we issued one regarding when 
the pipeline went down to make sure that we could continue to 
move, refine fuel and elsewhere.
    So what you will find as far as my approach as a believer 
in the Jones Act, CBP has to adjudicate each request for a 
potential waiver coming in. I know CBP did make some 
definitional changes back in October 2019, I believe, working 
with industry, and I think that was a 2-year process. So happy 
to continue to have those discussions to see if there is other 
tweaks that need to be made. I know they engaged a number of 
constituents before they rolled that out.
    Mr. Palazzo. Well, thank you, and I appreciate your 
comments. I know your predecessors were pretty much on the same 
note that the Jones Act is vitally important to protect 
America's maritime industry, and it is extremely important to 
our national security. Commandants, admirals, generals have all 
agreed with your assessment as well.
    Real quick, we hear border security is national security. 
That is so true. I have had the pleasure of serving under five 
different Presidents in uniform as a member of the Reserve or 
the National Guard. And I have to tell you, that this 
President, in his 3 short years, he made a commitment to 
rebuild our military, strengthen our Nation, and put America 
first, and he has fulfilled--and he is fulfilling those 
commitments. And I think the majority of the American people 
see that.
    And I think it is kind of a shame that, you know, if some 
of the people on the other side of the aisle would put national 
security and the American people ahead of partisan politics, 
then he wouldn't have to be, in the terms of my colleague from 
Florida using terms like stealing or robbing from DoD. He is 
putting the American people first, he is choosing our national 
security, and he is doing what he thinks is right, and I agree 
with him. But I do believe if the others would fund the border 
security, the barriers, the technology, the boots on the 
ground, as well as our needs for our Department of Defense, 
then we really wouldn't be having this conversation. But I do 
know you were somewhat rudely cut off, and if you would like to 
make any comments to my colleague's, her remarks or to mine.
    Mr. Wolf. I would say, as you indicated, President Trump, 
you will find no bigger supporter of both the military and the 
men and women at the Department of Homeland Security, so that 
is first and foremost. We certainly thank the President for 
everything that he does for the Department.
    I will say, again, that border security is national 
security. And whether it is building a border wall system, 
understanding and knowing and vetting who is coming into this 
country, the goods that are coming into this country is job 
number one for the Department. And so, whether, again, we are 
talking about a border wall system or we are talking about 
potential travel restrictions that have to reduce the threat or 
the vulnerability of not understanding who is coming in, we 
talked about the refugee program, making sure that we have the 
right security protocols in place, that is job number one for 
the Department and for the administration.
    So again, the Department is doing all that it can to 
increase the security, understanding who is coming into this 
country. There are vulnerabilities out there that we are 
addressing through a variety of programs, but as I said 
earlier, and it is not a tag line, border security is national 
security. I am not sure that, you know, before this 
administration, that was made abundantly clear. But again, I 
think under President Trump, he has made that abundantly clear 
time and again.
    Mr. Palazzo. I agree. Border security is national security. 
It is a no-brainer. And I would like to also say that the 
morale in our Nation's military is the highest that I've ever 
seen it under this President because he is focused on the men 
and women in uniform, their families as well as fulfilling the 
commitments to our veterans to make sure that they have the 
healthcare that they deserve and that they have earned.
    And so I would like to also just say, you know, you have a 
huge mission securing and protecting our homeland, so thank you 
for your work, and thank you to the tens of thousands of 
dedicated employees under your watch. Thank you.
    Mr. Wolf. Thank you.
    Ms. Roybal-Allard. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    Just picking up on this last discussion, you would agree, 
wouldn't you, Mr. Secretary, that the considered judgment of 
the Congress in writing the Military Construction 
appropriations bill is also about national security?
    Mr. Wolf. I would.
    Mr. Price. And that there is a burden of proof on the 
President or anyone else who would come in and divert that 
funding, the prerogatives of the Congress notwithstanding, for 
a preferred project down on the border, presuming--presuming--
to judge that that vision of national security trumps the best 
judgment of the Congress with respect to the Military 
Construction appropriations bill.
    You are OK with that?
    Mr. Wolf. I would certainly agree that it is not only the 
President's decision. Obviously, it is informed by what you do 
here in Congress, the funding that you pass and the President's 
budget, as well as authorizing bills. So, yes, it is a shared 
responsibility.
    Mr. Price. A shared responsibility that we need to figure 
out how to assert sooner rather than later.
    Let me ask you a quick question to which I hope you can 
give me a reassuring answer, and then I want to turn to a 
somewhat more complicated matter--that is, this renewed travel 
ban.
    But, first, the question of earthquake recovery assistance 
in Puerto Rico. As you well know, there was a devastating 
series of earthquakes in December that caused further damage to 
an island already damaged by previous disasters.
    The President quickly declared a major disaster based on 
the earthquakes on January 16, but he did limit Puerto Rico's 
eligibility for assistance to debris removal and emergency 
protective measures.
    In briefings since then, FEMA has acknowledged that damage 
from the earthquakes more than meets the criteria to make 
Puerto Rico eligible for assistance to repair or replace 
damaged facilities. So I am asking you, why hasn't the disaster 
declaration been extended to include the repair or replacement 
of damaged facilities? And when can we anticipate that it will 
be amended in that respect?
    Mr. Wolf. I can certainly follow up with FEMA Administrator 
Gaynor on that front. I am aware of----
    Mr. Price. I am sorry, you say you will follow up?
    Mr. Wolf. I will follow up. Obviously, those requests, 
those declarations come through FEMA from--this case, from the 
Governor of Puerto Rico. So I will look into that.
    I don't have specific information on why certain categories 
of that funding--I understand what the President approved. I 
think you are talking about additional categories----
    Mr. Price. Well, I am talking about what would normally be 
included in such a declaration.
    Mr. Wolf. Of course, FEMA looks at any declaration, any 
request for funding under the Stafford Act. Obviously, that is 
not just a check. They go through a series----
    Mr. Price. Yeah. The Governor requested this over a month 
ago, January 11, as I understand.
    But the point is, why wouldn't this be routinely done? We 
are talking about FEMA assistance that applies to a disaster of 
this sort. Your own FEMA officials readily acknowledge that the 
damage meets the criteria. So why not amend that declaration?
    Mr. Wolf. So, again, I am happy to work with the FEMA 
Administrator to get a little bit more information on that.
    Again, FEMA assesses each request that comes in from the 
Governor, in this case, looking at an analysis--you know, doing 
the analysis and determining whether it meets the thresholds 
and, if it does, making a recommendation to the President.
    So we will continue to do that. That is a process that has 
been long in place. And, again, happy to follow up with FEMA to 
see where they are at in that process.
    Mr. Price. Yeah. Normally, this is not a point of delay. 
There are other points of delay. But we would appreciate a 
quick response on that and, hopefully, a favorable amending of 
the declaration.
    Well, my time is moving right along here, so I do want to 
at least pose the question about the expanded travel ban and 
then maybe be able to complete it in the next round.
    As you know, DHS has announced new travel restrictions on 
an interesting list of countries. I can't make much of the 
coherence of the list. It includes the only parliamentary 
democracy in Central Asia, Kyrgyzstan. It includes large and 
strategic countries in Africa--Nigeria, Tanzania, and so on. 
And, meanwhile, the original restrictions are maintained on 
Iran, Libya, Syria, Somalia, Yemen, North Korea, and Venezuela. 
That is a huge number of countries. The Muslim ban, as revised, 
you might say, and expanded.
    And we all know the hardships these pose, these bans pose. 
They deny people the opportunity to reunite with their 
families. They deny opportunities for educational and 
professional development. They deny lifesaving medical care and 
so on. There should be a heavy, heavy burden of proof on 
imposing or maintaining this sort of ban.
    So I have three interrelated questions, and maybe we will 
have to wait until the next round.
    One, why are these countries singled out? What is the 
thread connecting this seemingly incoherent list?
    Two, even if there are legitimate security concerns--and 
there may well be--why a travel ban? What happened to normal 
diplomatic interactions and other avenues of dealing with this? 
Is the draconian remedy of a travel ban really the best remedy?
    And I will have some other questions as a followup, but we 
can wait because I know my time has expired.
    Ms. Roybal-Allard. Yes.
    Mr. Rutherford.
    Mr. Rutherford. I am waiting on the clock.
    Thank you, Madam Chair.
    Mr. Secretary, I want to go back just one moment to the 
ports and container units coming in and being screened. I want 
to make sure that we get that information on what percentage is 
actually being screened at this time.
    There are some new and emerging technologies out there that 
I think have the capability to really get us to where--I think 
Congress set the goal at 100 percent a few years ago. And we 
are nowhere near that, is my understanding. So I look forward 
to working with your folks on that.
    Mr. Wolf. Yeah. Again, one of the reasons I took that back 
is I want to make sure that we get you right information. 
Obviously, we do a number of screenings overseas at various 
ports.
    Mr. Rutherford. Right.
    Mr. Wolf. We also do targeting information to identify 
those high-risk cargos. So, again, when we talk about 
targeting, sometimes we talk about screened cargo.
    So, happy to work with you and your staff to understand the 
specific datasets that you are looking for, and happy to get 
back to you with that.
    Mr. Rutherford. Thank you. Thank you.
    On another issue, the State of Florida right now is looking 
at some legislation to possibly require E-Verify across the 
State. And one of the concerns that I have heard is that the E-
Verify system has some drawbacks--the time, I think, to get 
responses and that sort of thing.
    Can you talk a little bit about any improvements or 
enhancements that may be coming for the E-Verify system?
    Mr. Wolf. Well, that is a system that--I think your 
comments are spot on on that. We have heard from a number of 
business communities that talk about the difficult nature of 
that program, not only using it but getting results back. So we 
have a number of initiatives underway at USCIS, which runs that 
program.
    I will say that we look at the voluntary nature and use of 
that program versus the mandatory use of that and how do we do 
that. And the imposition that that would place on companies, we 
balance that with making sure that workers are protected as 
well. So it is a balance that we continue to look at and 
continue to review on a number of our different programs.
    We provide a lot of, I would say, technical assistance on a 
lot of different pieces of legislation that target E-Verify. 
But, again, happy to maybe provide you a fuller briefing. We 
have an office at USCIS that that is all they do, is E-Verify. 
And I can run you through----
    Mr. Rutherford. Yeah, I would love to hear about that, 
particularly as we are moving forward with that. So thank you. 
Thank you for that.
    And this kind of blends into that, I think, maybe. Can you 
talk a little bit about CISA and, you know, the--I mean, 
obviously, we have the 2020 elections coming up. I see $1.1 
billion dedicated here for CISA and addressing not just the 
election issues but, obviously, the cybersecurity for our 
communications and a lot of other situations as well.
    Can you talk about, is that going to be sufficient for 
those innovations that we need to move forward with through 
CISA?
    Mr. Wolf. It is. The President's 2021 budget request fully 
supports the missions of CISA. And the priorities that they 
have include Federal cybersecurity, so that is protecting the 
Federal networks; of course, election security as we are in the 
2020 cycle; soft-target security; supply-chain security; 5G 
security; and the like. So there are a number of priorities 
that CISA has.
    When we talk about election security, obviously, that is 
sort of front and center as we continue throughout this year. 
So CISA is going above and beyond. We saw improvements made 
over 2016 as we went into the 2018 elections--one of the most 
safe, secure elections that we have had. We will continue that 
progress in 2020.
    And they are doing that in a variety of different ways. 
They are providing no-cost services to secretaries of States, 
who control the election systems in individual States. They are 
providing those same services to political parties, to 
campaigns, to every campaign. Some choose to take them up; some 
choose not.
    We are trying to educate voters. Voters have a play and a 
responsibility here when we talk about our elections, trying to 
make sure that they can identify perhaps disinformation or 
information that is not from a trusted source. So we are 
continuing to try to educate them on there.
    And then there are some other operational things that we 
are doing, such as Hunt testing and the like. So trying to 
cover the wide variety of services that States and locals need.
    But I will say that CISA's primary role and responsibility 
in election security is to push those resources and those tools 
to the local State and election officials. And they are doing 
that better today than they have ever before. In 2016, very few 
relationships between the Department of Homeland Security and 
secretaries of State. Today, all 50 States, we are talking to 
all 50 States, over 2,300 jurisdictions. And so we feel very, 
very good at where we are at at this point.
    Mr. Rutherford. I know the supervisors of elections that I 
have talked to are very appreciative of the cooperation and the 
assistance that they have gotten.
    And I will close with this. I want to thank you all also 
for paying great attention to the emergency communications 
program for public safety and that whole repackaging. As a law 
enforcement officer, a first responder, like our fire and 
rescue and others, obviously, our lives rely on that 
communication. And I think you all are doing a great job in 
addressing that issue, and I thank you for that.
    Mr. Wolf. Thank you.
    Mr. Rutherford. I yield back.
    Ms. Roybal-Allard. We will have a third round.
    Before I ask my question, I just want to go back to the 
whole issue of that 7-year-old little girl. As a mother, I just 
can't accept that we would send a 7-year-old child who is 
extremely ill, has uncontrollable seizures, back to Mexico and 
the deplorable conditions that have been described there.
    So what I am hoping, that I can get a commitment from you 
to work with me and to work with my office to see about the 
possibility of having a qualified medical personnel outside of 
the operational agency review such medical records, and also to 
work with us to define what is medically vulnerable, perhaps 
working with your policy office and the Department's Chief 
Medical Office on a definition.
    Mr. Wolf. So, again, I certainly understand the issue. As a 
father of two young boys, this is personal to me as well. And I 
would say, for our CBP officers that have to make these 
decisions every day, they are not easy decisions.
    So I understand the concerns. Happy to work with yourself 
and the committee staff to address any, you know, daylight 
between the policy guidance out there and the decisions that 
they make every day. So, happy to continue to have a dialogue 
about that.
    Ms. Roybal-Allard. See if we can address that. Thank you.
    Mr. Secretary, we continue to receive damaging reports 
about unacceptable, substandard conditions at ICE and CBP 
detention facilities. For example, at ICE's Cibola Detention 
Center, the conditions for several months were so bad they 
transferred out all ICE detainees with chronic medical 
conditions.
    And this is not a new problem. There are well-documented 
deficiencies over many years that range from nutrition to 
medical care, to due-process issues and even basic humane 
treatment. And we have seen some of these deficiencies during 
our visits to facilities across the country. But the problems 
persist, and as the size of the detained population increases, 
they appear to be getting worse.
    As we have discussed, improving the quality of care for 
migrants in DHS custody is an area in which we can and should 
be able to make progress together. In our fiscal year 2020 
bill, we provided resources to ICE's Office of Professional 
Responsibility to hire additional detention facility 
inspectors, with a goal of increasing inspections from once 
every 3 years to twice per year.
    We also significantly increased funding for the inspector 
general and for the Office of Civil Rights and Civil Liberties, 
with direction to use those resources for immigration 
enforcement and detention oversight.
    To help ensure that this enhanced oversight actually 
results in changes to the quality of care that is provided to 
the people in DHS custody, we also established and funded a new 
ombudsman for immigration detention.
    My question is, what is the status of establishing this new 
ombudsman office? And because it is critical that the ombudsman 
and the new office be widely perceived as fair and objective 
and for the ombudsman to meet the professional criteria 
established in the fiscal year 2020 bill, what guarantee can 
you give us that you will do everything possible to ensure that 
the first ombudsman will, in fact, meet these criteria?
    Mr. Wolf. Absolutely, you have my commitment that they 
will.
    So we are in the process of standing that up. As you know, 
we have a working group that is going to come back 90 days from 
when that bill was passed, which I believe is the middle of 
March, March 14, to come back with a plan for the office, not 
only a strategic plan but more of an operational plan. How is 
it going to be staffed? What is its focus? What are the 
priorities? So I look forward to getting that, and we will 
certainly come and talk to the committee about that and 
yourself about that plan.
    The idea after that 90 days is to make sure that that 
office is up and running within 6 months. I am going to see 
what we can do, once I get that plan, to try to shorten that 
timeframe. I think that we can.
    And, of course, after that 90 days, we will start to look 
at--we are already starting to--trying to identify who might 
run this office in the long term. So we want to make sure that 
we get professional folks in there that have a background not 
only in detention but detention standards, that come from this 
community, to be the most successful in the job.
    Ms. Roybal-Allard. OK. So the ombudsman will be reporting 
directly to you so that you will have an unfiltered window on 
detention conditions.
    Mr. Wolf. Correct.
    Ms. Roybal-Allard. And just based on your comments, I take 
it that you are committed to ensuring that this new ombudsman 
will be used to improve the conditions at DHS detention 
facilities. Is that correct?
    Mr. Wolf. That is correct, as the committee and the 
Congress directed.
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Fleischmann. I have no further questions. I just want 
to thank the Secretary for his testimony today.
    Thank you. I yield back.
    Ms. Roybal-Allard. Mr. Price?
    Mr. Price. Thank you, Madam Chairman.
    Mr. Secretary, let me return to the question I was 
articulating when my time ran out, because it is an important 
question. And I will just repeat it very briefly.
    I am asking about the expanded travel ban, which now has 
reached large proportions, affecting, by our calculation, about 
300 million people. And I was asking you about the newly 
targeted countries. Are they unique? Are they being singled out 
as examples, or are there unique problems here? What is the 
nature of this seemingly incoherent list?
    Secondly, if there are legitimate security concerns--and I 
am aware there may well be--if there are legitimate security 
concerns with these countries and the way they handle security, 
is a travel ban the way to disagree with them, to express 
disagreement, and, above all, to secure improvement? Is a 
travel ban--should we see it just as a punitive measure 
designed to single out these countries and somehow punish them? 
Or is a travel ban somehow designed to fix the problem? It 
looks like a blunt instrument.
    I am assuming that the reason for each of these countries 
being included is not the same. And so the question is, does 
one size fit all in terms of a remedy? Or are we just singling 
them out and doing that in a punitive way, or is this actually 
a remedy?
    And then, thirdly, assuming it is a remedy, just giving the 
benefit of the doubt to the policy, it seems strange on the 
face of it. How are you addressing a national security concern 
if the travel ban doesn't even apply to nonimmigrant visas? 
Individuals who receive immigrant visas are already highly 
scrutinized, and they presumably are very, very--if this is 
about security, there are very stringent vetting procedures in 
place. But you are not applying this to nonimmigrant visas. So, 
as a practical matter, how is this supposed to work?
    So those are three questions that I hope you can help us 
understand.
    Mr. Wolf. I would start by saying that understanding who 
comes into the country is first and foremost.
    Let me answer it in a long way, to say that, starting in 
2017 and then of course in 2018 with the original travel 
restrictions, as you mentioned, Congressman, of the seven 
countries, the Supreme Court upheld that, upheld the process 
that we went through during that. And over the next several 
years, we have only increased and enhanced that process.
    So, every 6 months, we adjudicate whether certain countries 
are meeting certain baseline security requirements, such as: Do 
they have an electronic passport? Do they share lost and stolen 
passports with Interpol? Do they share known and suspected 
terrorist information with the U.S.? Do they share examples of 
their passport to U.S. so CBP and Customs officers can know 
what a fraudulent is or is not?
    So what we did back in March 2019 is we demarched all 200 
countries. We gave them the survey, we gave them all the 
questions and started to work with them, State Department did, 
in all of those locations to say, ``Here is the information 
that we need from you.'' We went through 6, 7, 8 months of 
that.
    These countries knew where they stood, knew that they were 
deficient, knew that they could not answer, they could not 
address. We worked with them. We tried to put a number of them 
on improvement plans--that is my term; that is not the official 
term--tried to put them on a number of plans.
    We saw a number of countries during that process who were 
not going to meet these minimum baseline security requirements 
step up and put measures in place so that they did meet them.
    What you see with these 6 countries, out of all 200 
countries, is a very few, a very small set that were not able 
to meet minimum basic security requirements that then get put 
on travel restrictions to reduce that vulnerability.
    Going forward, to answer your last question, I believe is, 
if you look at the original seven, obviously, we not only 
looked at immigrant visa restrictions and nonimmigrant visa 
restrictions--the six countries that are more targeted today, 
obviously, the U.S. has a relationship with them. Many of them 
want to work with the U.S. Government and certainly want to 
address their vulnerabilities for a variety of different 
reasons. And they are all very different. They were simply 
unable to meet the minimum requirements.
    And, again, the President's Executive order and the like 
tells us to look at that vulnerability and then make 
recommendations to him to address those vulnerabilities.
    So, again, the targeted restrictions, travel restrictions, 
that we have on these six countries are very targeted. And what 
we have already seen is that a number of these countries, even 
though we have been in discussions with them for 6 or 7 or 8 
months, it is only when we put a travel restriction that they 
then say, OK, let us really now talk to you about how we get 
off of this.
    And we saw that back in 2017 and 2018 with the Republic of 
Chad, who was originally on the list. They did a number of 
improvements shortly after those travel restrictions came out, 
and we provided them an off-ramp, and then the President took 
them off of those travel restrictions.
    So I would say that it is a very transparent process to 
these countries on how both to meet the minimum requirements 
but then how to increase their measures to provide that off-
ramp and to be removed from those travel restrictions.
    Mr. Price. All right. So there are not more where these 
came from, necessarily. These are unique cases. In all of 
Central Asia, Kyrgyzstan is the only country that there is a 
problem with.
    Mr. Wolf. I would say we had deficiencies across the board. 
We had to draw a line, using a variety of assessments, to say, 
there are minimum baseline requirements that everyone should 
meet. Even countries that meet that baseline requirement that 
may perhaps not be on the travel restrictions, we are still 
working with them, we still want them to do more, we need them 
to do more. And we continue to have that dialogue with them.
    These are, again, six countries that for a variety of 
different reasons were not able to meet the minimum basic 
security standards that we require.
    Mr. Price. Well, Madam Chairman, I know my time has once 
again expired.
    Let me just express the strong hope that we will work with 
these countries constructively.
    Mr. Wolf. We will.
    Mr. Price. It is important not just to call them out, not 
just to impose punitive measures, but to work--whatever the 
problems are, to work them out and to work them out 
cooperatively. Because on this list are countries that we have 
had good relationships with, important relationships with. And 
those relationships are very, very important and, I would say, 
transcend the minor differences we might have.
    Mr. Wolf. Yes. And I will say that, you know, as part of 
the process, DHS does this assessment, and we provide 
recommendations to the interagency. So we have departments and 
agencies, like DoD and others, that provide input to the final 
recommendations presented to the President. So a lot of the 
other considerations and national security considerations and 
others are factored into those recommendations to the 
President.
    Mr. Price. Thank you, Madam Chairman.
    Ms. Roybal-Allard. Mr. Secretary, before adjourning, I was 
going to ask if you had any closing comments or clarifications. 
I believe Mr. Palazzo gave you that opportunity, but if there 
is anything else that you would like to say before we adjourn.
    Mr. Wolf. No. And I appreciate the opportunity to do that.
    I would just say, again, I always like to talk about the 
men and women of DHS in every opportunity. I think in many 
instances they are unfairly criticized. And I think we all can 
agree that--again, I keep saying, not only border security but, 
I would just say, homeland security is national security.
    And so, you know, my message would be to the men and women 
of the Department of Homeland Security that continue to do 
their job every day. You know, considering the noise and the 
environment that we are in, their job is very difficult. It is 
very dangerous, whether it is on the border, whether it is in 
the interior, whether it is on Coast Guard ships, anywhere and 
everywhere that they serve, very dangerous job. And I need them 
focused on their mission every day and not worrying about the 
noise that they hear in the background.
    And so, again, I thank the men and women for what they do 
every day. I thank the committee for the resources that you 
provide the Department to do our mission, and look forward to 
the continued dialogue.
    Ms. Roybal-Allard. Thank you.
    And if there are no more questions, we are adjourned.
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
 
    

</pre></body></html>
